<html>
<title> - PROTOCOLS TO THE NORTH ATLANTIC TREATY OF 1949 ON THE ACCESSION OF THE REPUBLIC OF ALBANIA AND THE REPUBLIC OF CROATIA (TREATY DOC. 110-20)</title>
<body><pre>[Senate Hearing 110-507]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-507
 
PROTOCOLS TO THE NORTH ATLANTIC TREATY OF 1949 ON THE ACCESSION OF THE
  REPUBLIC OF ALBANIA AND THE REPUBLIC OF CROATIA (TREATY DOC. 110-20)
=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                           SEPTEMBER 10, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html


                   U.S. GOVERNMENT PRINTING OFFICE
44-538 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Dodd, Hon. Christopher, U.S. Senator From Connecticut............     1


Fata, Hon. Daniel P., Deputy Assistant Secretary for European and 
  NATO Policy, Department of Defense, Washington, DC.............    14


Fried, Hon. Daniel, Assistant Secretary for European and Eurasian 
  Affairs, Department of State, Washington, DC...................     6

      Prepared statement.........................................     9


Lugar, Hon. Richard G., U.S. Senator From Indiana................     4


              Additional Material Submitted for the Record

Prepared Statement of Hon. George V. Voinovich, U.S. Senator From 
  Ohio...........................................................    36


Responses of Assistant Secretary Dan Fried to Questions Submitted 
  for the Record by Senator Bob Corker...........................    37


Prepared Statement of Edward A. Andrus, President, National 
  Federation of Croatian Americans, Washington, DC...............    37

                                 (iii)



                    PROTOCOLS TO THE NORTH ATLANTIC



                    TREATY OF 1949 ON THE ACCESSION


                   OF THE REPUBLIC OF ALBANIA AND THE


                REPUBLIC OF CROATIA (TREATY DOC. 110-20)

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Dodd, presiding.
    Present: Senators Dodd, Cardin, Webb, Lugar, Corker, 
DeMint, and Isakson.

          OPENING STATEMENT OF HON. CHRISTOPHER DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. The committee will come to order.
    Let me, first of all, welcome our witnesses and those who 
are gathered in the room.
    As you can see, Senator Biden is not here this morning; he 
is elsewhere around the country. And for those of us here, I'm 
sure putting party and politics aside--partisan politics aside, 
we're excited for Joe Biden to have been selected by Barack 
Obama to be his running mate in this campaign. In the interim, 
he's asked me to chair the committee and, at various points 
along the way, to assist and support the activities of this 
committee. Senator Biden and Senator Lugar and others have been 
deeply involved in the subject matter before us today for some 
time, and, in their absence, any comments that Senator Biden 
would have, we'll certainly include as part of the record. But, 
I'm pleased to be stepping in for him temporarily, at least 
temporarily, until the election, and we'll see what happens 
after that, down the road.
    But, in the meantime, we thank all of you for being with us 
this morning.
    The subject of our hearing this morning are the Protocols 
to the North Atlantic Treaty Organization (NATO). I have some 
brief opening comments to make, then I'll turn to my colleague 
and dear friend Senator Richard Lugar, who I've enjoyed 
immensely serving with on this committee for 28 years. In my 
first days in this body, I was sitting about four seats down 
from where Johnny Isakson is sitting right now, and it took 28 
years to move up to this particular point this morning.
    It's a slow journey here.
    [Laughter.]
    Senator Dodd [continuing]. I'll turn to our colleagues, as 
well, for any opening comments you may have, as well, before 
turning to our witnesses.
    Nearly 60 years ago, our leaders, in the wake of World War 
II, devised a security framework to defend Western democracies 
against the threat of Soviet communism. For almost 60 years, 
the alliance they forged has endured and expanded. NATO has 
protected the Euro-Atlantic community and buttressed fledgling 
democracies. More than a military alliance, NATO has become an 
agent of peace and an important factor in the prosperity and 
integration of the nations of Europe.
    NATO is an organization that runs on consensus, requiring 
that every nation in the Alliance approve the addition of each 
new members. In this manner, NATO has added 10 new members 
during the past 10 years.
    Today we're going to consider the third round of expansion, 
this time extending the Alliance into the Balkans with the 
addition of Albania and Croatia to full membership. I'd like to 
welcome and introduce the administration witnesses who will 
assist us in coming to our conclusions, Assistant Secretary of 
State for European Affairs Dan Fried and Deputy Assistant 
Secretary of Defense Dan Fata.
    I'm disappointed, I might point out here, that the 
Department of Defense--breaking with past practice, I might 
note, as well--has not made Supreme Allied Commander Europe 
(SACEUR) General John Craddock available to speak to the 
important issue before us today. I don't know, frankly, how we 
can proceed without SACEUR's input. And so, I would like those 
in the audience to take note--and certainly we'll communicate 
this very directly to the Department of Defense. It will be 
important for us to hear from them, as well.
    And I don't blame General Craddock in any way. In fact, I 
suspect, on this own, he would have liked to have been here. 
There are other issues that are under consideration. But, 
nonetheless, it's important to have the DOD input in matters as 
important as the one before us this morning.
    We should not forget, I would quickly point out, that NATO 
went to war in the Balkans 9 years ago. We've made, and 
continue to make, substantial investments to promote regional 
peace. Having Albania and Croatia within the Alliance will be a 
force for stability in the Balkans.
    Our aim in this hearing this morning is to determine 
whether both of these candidate countries have met the criteria 
for NATO membership. Albania and Croatia deserve our admiration 
for the extensive political and military reform processes that 
they've engaged in to reach this point. But, our aim is also to 
ensure that their accession is in the interest of NATO and, of 
course, the United States.
    In the 1990s, Secretary of Defense William Perry outlined 
five principles of political reform that each new candidate 
should 
meet. These principles, I think, by and large, have been 
embraced by the successor administrations. These criteria 
include democratic elections, individual liberty, and the rule 
of law, demonstrated commitment to economic reform and market 
economy, adherence to the norms of the Organization of Security 
and Cooperation Europe in the treatment of ethnic minorities 
and social justice, resolution of territorial disputes with 
neighbors, and the establishment of democratic control of the 
military. These are the standards that I think we must apply 
when considering new members to NATO.
    Both countries were officially invited to join the Alliance 
at an important NATO Summit in Bucharest this April. But, their 
invitation wasn't the only question of NATO enlargement on the 
agenda that month. The allies also extended an invitation to 
the country NATO recognizes as the Former Yugoslav Republic of 
Macedonia. That invitation will take effect if and when they're 
able to reach a compromise with Greece over the issue of the 
name of their country--an issue which has been around for some 
time, I might add. I hope they can find a mutually acceptable 
solution. I welcome an update on the status of these 
negotiations from our witnesses this morning.
    At Bucharest, Ukraine and Georgia petitioned for Membership 
Action Plans and received commitments to membership, without an 
exact timeline and criteria. Recent events in Georgia obviously 
have given greater salience to the issue of its eventual 
membership. Next week, this committee will hold a hearing on 
Georgia and the implications of the recent conflict. As 
tensions increase between NATO members and Russia, the 
geopolitical position of the Ukraine, a country that straddles 
East and West, also increases the tension about its prospects 
for membership.
    The Foreign Relations Committee has a legislative 
responsibility to consider these questions of NATO enlargement 
and to initiate the process of approval in the U.S. Senate. 
Each NATO state must consider the merits of the candidates and 
commit to the security of Albania and Croatia through their own 
constitutional processes and procedures. If these protocols are 
approved by the U.S. Senate, we'll extend our commitment to the 
defense of these two nations under article 5 of the North 
Atlantic Treaty.
    As we take this step, it is incumbent upon us to review the 
full range of implications. We must consider our national 
interests and the nature of the allies that we are embracing. 
We must ask, Have there been democratic elections? What is the 
level of respect for the rights of the individual? Have they 
successfully established the rule of law? Is there a 
demonstrated commitment to the economic reform and market 
economies? How do they treat their minorities? Have they 
resolved all their territorial disputes with their neighbors? 
And finally, are their militaries responsible to democratically 
elected civilian officials?
    When we apply these standards, NATO is more than an 
alliance, it is an agent of change, creating a freer and more 
peaceful Europe. To undertake a commitment of mutual defense is 
one of the most serious steps that any government--any 
government can ever take. It is a solemn commitment. We must 
consider the readiness of NATO to take on this additional 
responsibility, as well as the military capability and 
political institutions of a potential ally. But, we must 
consider, also, the nature of that ally.
    As I stated at the outset, NATO is more than merely a 
military alliance, it is a partnership of like-minded 
democracies dedicated to a vision of Europe whole and free. I 
look forward to discussing these questions with our witnesses 
today.
    And, with that, let me turn to my friend and former 
chairman of this committee, Senator Lugar.

         OPENINGS STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I am pleased that we will have a hearing of the committee, 
on Georgia, next week. I would commend to members of the 
committee, a statement made by our witness today, Secretary 
Fried, on Georgia. I found it to be the most comprehensive and 
useful piece that I've read, thus far. So, as sort of study 
material, with a week for us to think about it, it might be 
useful to take a look at that paper, which I am certain the 
staff can make available to us.
    I strongly support the Alliance's decision to invite 
Albania and Croatia to join NATO. Both countries have clearly 
stated their desire to join and are working hard to meet the 
specified requirements for membership. The governments in 
Tirana and Zagreb have been preparing for membership for more 
than 8 years.
    And I say, parenthetically, as we discuss Membership Action 
Plans, Membership Action Plans are not necessarily an immediate 
entry vehicle. Eight years of preparation by these two 
countries is substantial. Each of them is undergoing a process, 
a democratic and free-market transformation. They've made 
important progress toward establishing civilian control of 
their militaries and toward demonstrating their ability to 
operate with military forces of NATO nations at alliance 
standards.
    Albania and Croatia continue to contribute to the United 
Nations mandated International Security Assistance Force, ISAF, 
operating under NATO leadership to assist the government of 
Afghanistan. In addition, the candidates have improved their 
democratic processes, strengthened toleration of ethnic 
diversity, broadened respect for human rights, worked toward 
free-market economies, and promoted good regional relations.
    On February 18, 2008, the United States and many of our 
European allies diplomatically recognized the independence of 
Kosovo. This was an important step in putting the bloody 
history of the Balkans in the past, but our work in the region 
is certainly not done. In my view, lasting stability and 
security in southeastern Europe requires that the emerging 
democracies there be integrated into the military, economic, 
and political structures of Europe.
    Albania and Croatia occupy critical geostrategic locations 
and are well situated to help deter efforts to destabilize the 
region through violence. NATO membership for these countries 
would extend the zone of peace and security into a region that 
ignited a world war and numerous regional conflicts that have 
cost the lives of hundreds of thousands.
    If NATO is to continue to be the preeminent security 
alliance and serve the defense interests of its membership, it 
must evolve, and that evolution must include enlargement. 
Potential NATO membership motivates emerging democracies to 
make advances in areas such as the rule of law and civil 
society. A closer relationship with NATO will promote 
achievement of these goals in Albania and Croatia and 
contribute to our mutual security.
    Unfortunately, the summit at Bucharest failed to extend the 
Membership Action Plan to Georgia and Ukraine. This decision 
sent the wrong signal to Moscow and the international 
community. Last month, I traveled to Georgia and Ukraine, and, 
during my visit in Georgia, President Saakashvili reiterated 
his hopes for a Membership Action Plan, arguing this would be a 
powerful symbol of the West's support for an independent 
Georgia.
    In Ukraine, President Yushchenko, Prime Minister 
Tymoshenko, and the Speaker of the Parliament have signed a 
letter to the NATO Secretary General, signifying unity of 
purpose behind the MAP request, and their signatures remain on 
that letter.
    Ukrainian political unity is critical to its success, and 
recent reports out of Kiev are not promising in this regard. I 
am hopeful unity can still be achieved in the near term.
    Five years ago, the U.S. Senate unanimously voted to invite 
seven countries to join NATO. Today, Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia are making important 
contributions to NATO and are among our closest allies in the 
global war on terrorism. It is time again for the United States 
to take the lead in urging its allies to support the membership 
aspirations of Albania and Croatia, and, at the same time, the 
United States must continue to lead the effort to ensure that 
Georgia and Ukraine receive Membership Action Plans.
    Since the end of the cold war, NATO has been evolving to 
meet the new security needs of the 21st century. In this era, 
the threats to NATO members are transnational. NATO's viability 
as an effective security alliance depends on flexible and 
creative leadership, as well as the willingness of members to 
improve capabilities and address common threats.
    Moving forward with the membership of Albania and Croatia 
is an important element in this process and will ensure that 
NATO continues to serve the national security interests of its 
members.
    I thank the Chair.
    Senator Dodd. Thank you very much, Senator.
    Senator Corker--I don't know the order in which people 
arrived, but do you have any comments you'd like to make?
    Senator Corker. I'd rather move to the witnesses, and I 
think both your opening comments were outstanding.
    Senator Dodd. Johnny, any opening comments?
    Senator Isakson. Only, Mr. Chairman, to comment that I was 
in Germany in early August, at the Brandenburg Gate and at 
Checkpoint Charlie, and to think that--when NATO was started, I 
think we all thought if it ever exercised article 5, it would 
be in defense of Germany, and to think that the first time it 
did that was actually to come to the aid of the United States, 
post-9/11, in Afghanistan, and, given where these two countries 
are in the Balkans, and with the problems that have existed 
there, I think strengthening of NATO and admission of Croatia 
and Albania will do nothing but good things for that part of 
the world, help to have the type of stability that now most of 
Eastern Europe is now enjoying. So, I look forward to the 
testimony, and I'm very proud of the success of NATO, and our 
participation in it.
    Senator Dodd. Thank you very much, Senator.
    Oh, Jim, I'm sorry, I didn't see you come in. I apologize.
    Jim Webb.
    Senator Webb. Thank you, Mr. Chairman. I will have some 
questions, but I'd prefer to wait until the witnesses are done.
    Senator Dodd. You came in rather quietly, here.
    Senator Webb. I'm actually sitting in Senator Obama's seat, 
too, so----
    [Laughter.]
    Senator Webb [continuing]. I'm a little closer to you than 
usual.
    Senator Dodd. And I'm in Senator Biden's seat. There's been 
no coup in the committee going on. [Laughter.]
    I guess it will be with you, Mr. Secretary.
    Secretary Fried.

    STATEMENT OF HON. DANIEL FRIED, ASSISTANT SECRETARY FOR 
EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Mr. Fried. Thank you, Chairman Dodd.
    Mr. Chairman, Ranking Member Lugar, and members of the 
committee, thank you for the opportunity to discuss NATO and 
the protocols of accession of Albania and Croatia.
    NATO has successfully served the United States and Europe 
for nearly 60 years as a defensive alliance and an alliance of 
values. Although created in the context of Soviet threats to 
European security, NATO is not an alliance directed against any 
nation. A key purpose was, and remains, to defend its members 
from attack. But another purpose was to provide a security 
umbrella under which Western European countries could be 
reconciled and find peace after two world wars. A third purpose 
of NATO was to institutionalize the transatlantic link between 
Europe and the United States.
    At NATO's core is article 5. It is a solemn commitment. For 
many years, we expected that if this collective defense article 
were ever invoked, it would be in response to a Soviet assault 
on Germany. No one expected an attack on the United States that 
originated in Afghanistan. But, that was the cause, on 
September 12, 2001, of NATO's invocation of article 5 for the 
first time.
    As the threats to NATO's members have changed, NATO has 
adapted. From the outset, NATO enlargement took place, even 
during the cold war. After the Soviet Union fell, NATO 
enlargement took on a more profound role, as newly liberated 
democracies sought membership in the Alliance. Many of these 
countries were on unfamiliar ground, nervous about Russia and 
unsure of themselves. But, thanks in large part to a United 
States strategy developed under the last three Presidents, NATO 
enlargement and EU enlargement, which we supported, became the 
means by which the vision of a Europe whole, free, and at 
peace, started becoming reality.
    NATO enlargement became an instrument through which Central 
and Eastern European countries carried out reforms at home and 
reconciled with each other. The policy of NATO enlargement, 
which many here in this room helped shape, is one of America's 
and Europe's greatest achievements since the end of the cold 
war.
    NATO enlargement was designed in parallel with efforts to 
reach out to Russia and develop a new NATO-Russia relationship. 
We wanted a new Europe and a new relationship with Russia. We 
did not shut the door even to the possibility of Russia 
becoming a member of NATO one day. For a time, Russia appeared 
to be moving toward more democracy at home and more cooperation 
with its neighbors. But, recent developments show a different 
picture. Russia has turned toward authoritarianism at home and 
threats toward its neighbors. It has attacked Georgia and 
attempted to change international borders by force. The Russia 
that we sought, and still seek as a partner, is not the Russia 
that exerts a sphere of influence or privileged interests over 
its neighbors. These actions are particularly unwarranted, 
because, despite Russia's complaints, NATO enlargement has made 
the part of Europe to Russia's west the most peaceful and 
benign it has ever been in all of Russia's history.
    Yugoslavia and the countries that emerged from Yugoslavia 
were a terrible exception to the good progress of Europe after 
1989. The violent breakup of that country threw the Balkans 
into a downward spiral from which that region is only now 
recovering. But, we believe that NATO enlargement, along with 
EU enlargement, can do for the Balkans in this decade what it 
did for Central Europe in the last.
    Albania, Croatia, and Macedonia have implemented 
significant reforms, in part because they wanted to join NATO. 
Through the Senate's advice and consent for Albania and 
Croatia's NATO accession, we can promote consolidation of peace 
and security in the Balkans.
    Let me say a few words about the two aspirants whose case 
is before this committee.
    In the 17 years since Albania freed itself from one of the 
world's most repressive Communist dictatorships, it has made 
steady--in fact, dramatic--progress in creating stable, 
democratic institutions, and a free-market economy. Its road 
has not always been easy, but its desire for NATO membership 
has shaped and motivated Albania's progress.
    Militarily, Albania has used international and American 
assistance to restructure and strengthen its armed forces to 
the point where Albania has become a contributing partner on 
NATO missions in Afghanistan and Iraq. Albania has more work to 
do in the areas of judicial reform, electoral reform, and 
reducing corruption, but it has made major strides in all of 
these areas and in democratic progress, generally.
    Croatia is a valuable NATO partner. It has pledged about 
300 troops in Afghanistan and is one of the only non-NATO 
members currently training Afghan military units. Croatia has 
become a stable democracy with strong institutions. As a 
nonpermanent member of the U.N. Security Council, Croatia has 
shown itself to be a good regional and global partner on issues 
of peacekeeping operations, nonproliferation, counterterrorism, 
and regional peace and stability.
    Croatia, too, faces challenges on issues of property, 
infrastructure development for war refugees, and reform of 
institutions, including the judiciary. But, its track record 
gives us considerable confidence.
    Macedonia has also made progress in building a free-market 
democratic system, in strengthening the rule of law, tackling 
corruption, and introducing economic reforms. It is a steadfast 
partner in the fight against terrorism, and has contributed 
troops in Iraq, Afghanistan, and Bosnia, and is committed to 
fund its defense to support peacekeeping, as well as continued 
reforms.
    The United States supports Macedonia's NATO bid. Its 
invitation at the Bucharest Summit was delayed because of a 
dispute over the issue of Macedonia's name. We support efforts 
to resolve this dispute as soon as possible and believe a 
mutually acceptable solution is possible.
    All three countries have work to do, but, given their 
progress, we see a historic window of opportunity to bring them 
into the European mainstream. Their entry into NATO will not 
only help stabilize a long-turbulent region, but it will show 
others in the region that there is an alternative to 
nationalist divisions and violence. NATO enlargement to these 
countries, now Albania and Croatia, is in the American national 
interest.
    There is another part of Europe still at risk, and this 
includes the countries of Georgia and Ukraine. The leaders of 
these nations aspire to NATO membership. Neither nation is 
ready for NATO membership now, and NATO membership involves 
solemn commitments, which must be considered carefully.
    But, the question before NATO is not an immediate 
invitation to membership. The immediate question is whether 
these countries should have the same opportunity to meet NATO's 
terms for membership as other European nations. We believe they 
should. NATO leaders at the Bucharest Summit agreed, declaring 
that Georgia and Ukraine will become members of the Alliance. 
As we consider the desire of these countries to join the 
Alliance, we should make clear that they have work still to do, 
and there are--and these are serious decisions which the 
administration, the next administration, and the Senate will 
have to consider.
    We should consider it, but what we should not do is give 
Russia a veto over NATO's decisions. That is why the United 
States supports giving both countries entry into NATO's 
Membership Action Plan. MAP is not NATO membership, it is a 
work program to help countries carry out reforms that are 
necessary before they become NATO members.
    Russia has made it clear that it would regard even a MAP 
for Georgia or Ukraine with hostility. We regret this position. 
We seek good relations with Russia, but Russian security cannot 
be achieved by making its neighbors insecure. These countries 
and others are entitled to their own aspirations, not simply 
the aspirations Russia wants them to have.
    We must consider the implications of Russia's attack on 
Georgia. Georgia is not a NATO member, and article 5 does not 
pertain to it. But, the actions and the rhetoric from some of 
Russia's leaders have raised concerns of countries that are 
NATO members, concerns we must take seriously.
    I want to thank the committee for the bipartisan support 
over the years, not only for NATO enlargement, but for helping 
NATO evolve from its cold-war roots into an institution more 
prepared for 21st-century challenges. Thanks to NATO 
enlargement and the work of this committee during the time of 
this President and the previous one, over 100 million Europeans 
in the past decade have found greater security, stability and 
prosperity--in significant part as a result of being welcomed 
into the NATO Alliance.
    This has benefited the United States and made America's 
work in the world that much easier, for it is a fundamental of 
our foreign policy that the spread of freedom and security 
benefits our Nation, as well as its immediate recipients.
    Thank you, Mr. Chairman, and I look forward to taking your 
questions.


    [The prepared statement of Mr. Fried follows:]

   Prepared Statement of Hon. Daniel Fried, Assistant Secretary for 
   European and Eurasian Affairs, Department of State, Washington, DC

    Senator Dodd, Ranking Member Lugar, members of the committee, thank 
you for the opportunity to discuss NATO and the critical role it plays 
in our security and the advance of freedom.
    I will discuss NATO's purposes in the cold war and today; the role 
that NATO enlargement has played in advancing security and stability in 
Europe since 1989; the current proposed round of enlargement to include 
Albania and Croatia; and NATO's future relations with Georgia and 
Ukraine, whom NATO's leaders at the Bucharest Summit declared will 
become members of the Alliance. In addition, Russia's recent attack on 
Georgia and ongoing military activity in that country forms a backdrop 
to our discussion today.
                             nato's purpose
    NATO, the world's most successful military alliance, has been and 
remains the principal security instrument of the transatlantic 
community of democracies. It is both a defensive alliance and an 
alliance of values. While it was created in the context of Soviet 
threats to European security, it is in fact not an alliance directed 
against any nation. Article 5--NATO's collective defense commitment--
mentions neither the Soviet Union nor any adversary. One of NATO's 
purposes was and remains to defend its members from attack. But another 
purpose was to provide a security umbrella under which rivalries among 
West European nations--France and Germany in particular--could be 
reconciled and general peace in Europe could prevail after the 20th 
century's two world wars. A third purpose was to institutionalize the 
transatlantic link. NATO's first Secretary General, Lord Ismay, 
described NATO's role in an acerbic but telling aphorism, saying that 
the Alliance's purposes were ``to keep the Soviets out, the Germans 
down, and the Americans in.'' In the cold war, NATO succeeded: Under 
its umbrella, Western Europe remained free and united peacefully in the 
European Union.
    Article 5 remains the core of the Alliance. Throughout most of the 
Alliance's history, we had expected that if article 5 were ever 
invoked, it would have been in response to a Soviet armored assault on 
Germany. We never expected that article 5 would be invoked in response 
to an attack on the United States originating in Afghanistan. But that 
is what occurred. NATO's response was swift and decisive. The United 
States was attacked on September 11, 2001, and on September 12, NATO 
invoked article 5 for the first time in its history. In fact, while 
NATO's purpose of collective defense has remained constant, new threats 
have arisen. NATO thus has been required to carry out its core mandate 
in new ways, developing an expeditionary capability and comprehensive, 
civil-military skills. NATO is now ``out of area'' but very much in 
business--fielding major missions in Afghanistan and Kosovo, and a 
training mission on the ground in Iraq. NATO is doing more now than at 
any time during the cold war. While this is not the subject of our 
discussion today, NATO is still digesting the implications of these new 
requirements even as it continues fielding forces in Afghanistan.
                            nato enlargement
    NATO enlargement was foreseen in principle from the beginning of 
NATO's existence with article 10 of the North Atlantic Treaty. NATO 
brought in new members even during the cold war: Turkey and Greece in 
1952, West Germany in 1955, and Spain in 1982.
    After the fall of the Iron Curtain and end of the Soviet Union, the 
purpose of defense against attack by Moscow seemed to recede. But NATO 
enlargement took on a more profound strategic aspect: For the then-raw 
and apprehensive new democracies that emerged from the wreckage of the 
Soviet Bloc after the fall of communism, NATO, ahead of the EU, became 
the institutional expression of their desire to join with Europe and 
the transatlantic world. For the United States and other NATO members, 
NATO enlargement, along with EU enlargement, became the means by which 
the vision of a ``Europe whole, free and at peace'' started becoming 
reality.
    American leadership in NATO enlargement was patient, deliberate, 
and the result of careful planning that began during the administration 
of former President George H.W. Bush, crystallized under President 
Clinton, and evolved under President George W. Bush. The countries that 
had liberated themselves from communism found themselves on uncertain 
ground, looking for direction. They were nervous about Russia. They 
were not yet confident in their own democratic institutions. And they 
were mindful of the problems of their last period of true sovereignty 
in 1930s, when Europe, and especially Central and Eastern Europe, 
suffered from competing nationalisms and growing authoritarianism. Many 
worried that Eastern Europe after 1989 might fall back into the 
dangerous old habits of state-ism and nationalism, and border and 
ethnic rivalries.
    It was in this environment that NATO enlargement--occurring faster 
and initially with more determination than EU enlargement--became the 
instrument through which the Central and Eastern European countries 
reconciled with each other, and under which they advanced and completed 
reforms, setting aside nationalist rivalry much as their West European 
counterparts did after 1945. NATO made its first decisions about post-
cold-war enlargement in 1997, and security, stability, and democracy 
deepened in Central Europe. With the terrible exception of the 
countries of the former Yugoslavia, which I will discuss later, the 
success that these countries achieved was so complete, and so 
astonishing, that few today even recall that Eastern Europe was widely 
expected to turn out otherwise. The policy of NATO enlargement, which 
many here today helped shape, was one of America's and Europe's 
greatest successes after the fall of the Berlin Wall.
                      nato enlargement and russia
    NATO enlargement was intended to achieve emergence of a Europe 
whole, free and at peace: All of Europe, not just its Western half. It 
was not directed against Russia. Quite the contrary: NATO enlargement 
was designed to welcome new democracies in Europe in parallel to 
efforts to reach out to Russia and develop a new NATO-Russia 
relationship. In designing NATO's new role for the post-cold-war world, 
the United States and NATO allies have sought to advance NATO-Russia 
relations as far as the Russians would allow it to go.
    We wanted a new Europe and a new relationship with Russia at the 
same time. We sought to go forward, not backward. Through the 
establishment of the NATO-Russia Council (NRC) in 2002--the same year 
we invited seven Eastern European countries to join NATO--we presented 
Russia the path toward building a partnership with NATO to strengthen 
the common security of all. Allies also decided not to shut the door to 
the possibility of even Russia itself becoming a member of NATO at some 
time in the future.
    We assumed that we had in Russia a partner that was, over time, 
even if perhaps unevenly, moving toward more democracy at home and more 
cooperation with its neighbors and the world. But developments in 
recent years have forced us to question this assumption. Russia has 
turned toward authoritarianism at home and pressure tactics toward its 
neighbors. Now, by attacking Georgia, Russia has sought to change 
international borders by force, bringing into question the territorial 
settlement of the breakup of the U.S.S.R. in 1991. ``Revisionism'' has 
a bad history in 20th-century Europe and seems no better now. We want 
to have a partner in a Russia that contributes to an open, free world 
in the 21st century, not a Russia that behaves as an aggressive Great 
Power in a 19th-century sense that asserts--as President Medvedev 
recently did--a sphere of influence or ``privileged interests'' over 
its neighbors and beyond.
    Some argue that NATO itself was an aggressive instrument whose 
enlargement somehow caused Russia's own aggressive actions. This 
reflects ignorance of history. NATO did not take down the Iron Curtain. 
NATO did not trigger the collapse of the Soviet Union. NATO did provide 
the conditions of security and stability under which the people of 
Eastern Europe--Poland, Hungary, then Czechoslovakia, the Baltic 
States, and others--could reclaim their own nations. By preventing the 
expansion of Soviet power, NATO created the conditions under which the 
internal weaknesses of that system would themselves bring about its 
collapse. And NATO enlargement did not produce some massive 
encirclement of Russia. NATO enlargement created in Central Europe an 
area of peace, security, and stability. Stable, free market democracies 
along Russia's border rather than dictatorships are in everyone's best 
interest, including Russia's. Rather than shun Russia, or foment 
hostility to Russia, NATO, even as it grew, reached out to Russia to 
build and expand ties by helping one another as ``equal partners'' to 
face common threats and challenges.
    Imagine the circumstances if NATO had not enlarged. The nations of 
Eastern Europe would be unsure of their place in the world, consigned 
to a grey zone. Some of them are anxious now, thanks to Russia's 
invasion of Georgia. But imagine their fear were they not members of 
NATO. Kept out of NATO, they likely would have renationalized their own 
defense establishments in ways that would raise tensions not only with 
Russia but also among their neighbors. But thanks to NATO enlargement, 
the part of Europe to Russia's west is the most benign and peaceful it 
has ever been in Russia's history. I do not expect Russians to thank us 
for this achievement, but they would be right to do so.
                              the balkans
    The area of former Yugoslavia was the greatest and most terrible 
exception to the mostly good history of post-1989 Europe. The violent 
breakup of that country threw that region into a downward spiral from 
which the successor nations are only now recovering.
    But we believe that NATO enlargement--along with EU enlargement--
can do for the Balkans in this decade what it did for Central Europe in 
the previous decade. Albania, Croatia, and Macedonia--whose admission 
into NATO has been delayed only because of a dispute with Greece over 
its name--have undertaken and implemented the sort of reforms we have 
sought in significant part because they want to get into NATO. By 
providing general security to the Balkans, starting with the two 
aspirant nations whose accession the administration is seeking the 
Senate's advice and consent, we can consolidate general peace and 
security in the Balkans. The policy of NATO enlargement has been 
working for these aspirant countries and for the United States, and the 
administration believes that this round of NATO enlargement can open 
the way for all the nations of the Balkans to become part of the 
European mainstream.
    Let me say a few words about each of these countries.
Albania
    In the 17 years since Albania freed itself from one of the world's 
most repressive Communist dictatorships, Albania has made steady 
progress in creating stable, democratic institutions and a free market 
economy. The road has not always been easy; in 1997, Albania was shaken 
by a major financial scandal and domestic turmoil. But its desire for 
NATO membership has both shaped and motivated Albania's progress.
    Militarily, Albania is transitioning to a smaller, voluntary, 
professional military. It has put international assistance to good use 
by restructuring and strengthening its armed forces to the point where 
Albania has become a strong and reliable partner on NATO missions, with 
troops in Afghanistan, Iraq, and elsewhere. The government is also 
working with international assistance to make Albania landmine-free by 
2010.
    Albania has also made significant progress in democratic reforms. 
It has more work to do, and we expect its reforms to continue. Albania 
must accelerate judicial reforms and stay on track with its electoral 
reforms. The fight against corruption must be total in order to show 
that no one is above the law. A zero-tolerance policy--particularly in 
public services such as tenders, taxes, licensing, and health care--
must be backed up by systematic investigations and prosecutions. By 
putting more emphasis on the key roles of an independent prosecutor and 
judiciary, Albania can send a strong message of its determination to 
overcome past practices.
    In summary, NATO's invitation is a sign that Albania has made 
enormous steps forward. But it also has raised the bar, and more reform 
is still needed. Fortunately, the history of NATO enlargement in the 
past suggests that countries continue reforms rather than abandon them, 
when they join the Alliance.
Croatia
    Croatia is already a valuable NATO partner; it has pledged about 
300 troops in Afghanistan and is one of the only non-NATO members 
currently training Afghan military units in that country. As a military 
partner, Croatia has completed most of the restructuring that was 
needed and is currently focused on modernization, deployability, and 
interoperability.
    Croatia has also proved its political and economic maturity. It 
recently completed another successful round of national elections, and 
has become a stable democracy with strong institutions. Its election as 
a nonpermanent member of the U.N. Security Council beginning last 
January has enhanced its importance as our regional and global partner 
on issues of international peacekeeping operations, nonproliferation, 
counterterrorism, and regional peace and stability.
    Regionally, Croatia maintains positive bilateral relations with all 
of its neighbors. The Croatian Government is playing a positive role in 
Kosovo; it is promoting stability in Bosnia; and it has reached out to 
moderates in Serbia.
    Croatia also faces challenges, including the important issue of 
home reconstruction, repossession, and infrastructure development for 
war refugees. Croatia reported meeting its 2007 benchmarks on providing 
housing units to returning refugees, but the government expects almost 
10,000 unresolved applications in years to come, which will pose a 
long-term political and financial challenge.
    Judicial reform remains another challenge for the government, and 
Croatia has taken steps to address this, including reducing case 
backlog and improving training and supervision of judges and court 
administration.
    Finally, Croatia must address its property restitution legal 
framework so that it does not discriminate against current non-Croatian 
citizens who had property expropriated during World War II and the 
Communist regime.
    Given Croatia's strong track record in implementing reforms, we 
have every confidence that it has the will and capacity to be a good 
and contributing member of the Alliance.
Macedonia
    Macedonia largely escaped the civil wars that destroyed the former 
Yugoslavia and has made strides in building a free market, democratic 
system. A multiethnic state, it has chosen the route of compromise 
rather than nationalist extremism. In 2001, with support from the 
United States, NATO, and the EU, Macedonia concluded the Ohrid 
Framework Agreement (FWA) that ended an ethnic Albanian insurgency by 
enshrining enhanced minority rights. Since then, it adopted the 
constitutional and legislative changes mandated by the agreement and 
has worked steadily to implement the agreement. Macedonian governments 
always have included ethnic-Albanian and Macedonian parties, who have 
worked to forge political compromises in the overarching interest of 
the country.
    Macedonia continues to be a steadfast partner in the fight against 
terrorism. It has regularly maintained its troop contributions in Iraq, 
Afghanistan, and Bosnia (EUFOR), and it is committed to fund its 
defense to support peacekeeping as well as continued reforms.
    Macedonia has also made good progress in strengthening the rule of 
law and tackling corruption. The government has pursued bold economic 
reforms to attract investment, boost the economy, and reduce 
unemployment, and we are confident that Macedonia will continue to 
pursue a reform agenda in line with its NATO and EU aspirations.
    Like Albania and Croatia, Macedonia still has work to do: The 
parliamentary elections last June 1 were marred by irregularities, 
including intra-Albanian violence, and although reruns showed 
improvements, overall the elections fell short of international 
commitments. The Macedonia Government has made arrests and is pursuing 
cases, and we are urging follow-through to prosecute and sanction the 
perpetrators and put in safeguards for future elections. Following the 
elections, the soundly defeated opposition parties boycotted 
Parliament. We urged their return, which the main ethnic Macedonian 
opposition party has, and encouraged a conciliatory approach from the 
governing coalition.
    The United States continues to support Macedonia receiving a NATO 
invitation. Its invitation was delayed because of the dispute with 
Greece over Macedonia's name. Allied leaders made clear at Bucharest 
that this dispute is the only thing holding up a membership invitation. 
As soon as this dispute with Greece is resolved, Macedonia will receive 
an invitation to join the Alliance. Both Greece and Macedonia are 
engaged in negotiations on the issue, led by U.N. mediator Matthew 
Nimetz. We believe a mutually acceptable solution is possible, in the 
interest of both countries and the region, and indeed urgent. Now is 
the time to settle this issue and move forward.
    Last April 3, President Bush said both Croatia and Albania have 
``demonstrated the ability and the willingness to provide strong and 
enduring contributions to NATO. Both have undertaken challenging 
political, economic, and defense reforms. Both have deployed their 
forces on NATO missions. Albania and Croatia are ready for the 
responsibility NATO brings, and they will make outstanding members of 
this Alliance.''
    On Macedonia, the President said: ``We regret that we were not able 
to reach consensus today to invite Macedonia to join the Alliance. 
Macedonia has made difficult reforms at home. It is making major 
contributions to NATO missions abroad. The name issue needs to be 
resolved quickly, so that Macedonia can be welcomed into NATO as soon 
as possible.''
    That remains our perspective.
    These countries have had their challenges. They know that they have 
work to do. Their challenges are familiar to us from experience over 
the past 20 years of post-Communist transformation. Given their 
progress so far, we see a historic window of opportunity to bring them 
into the European mainstream. By having these countries join the 
Alliance, it will not only help stabilize a long-turbulent region, but 
it will show others in the Balkans that there is an alternative to 
nationalist or ethnic divisions and violence, and we believe it will 
inspire people in Montenegro, Bosnia, Kosovo and, we hope, Serbia, to 
follow the same path.
Georgia and Ukraine
    There is another part of Europe still at risk, as Russia's recent 
actions have dramatized.
    NATO has unfinished business in Georgia and Ukraine. The leaders of 
these nations aspire to NATO membership. Neither nation is ready for 
NATO membership now. Both nations realize this. The question is whether 
these countries should have the same prospect to meet NATO's terms for 
membership as other European nations. We believe that they should. 
Indeed, NATO's leaders at the Bucharest Summit agreed, declaring that 
Georgia and Ukraine will become members of the Alliance.
    Both countries face challenges. Ukrainian society is far from 
united about the prospect of NATO membership and many allies question 
the maturity and stability of its leadership. Quite apart from the 
issues arising from Russia's attack on it, Georgia has much work to do 
in strengthening its democratic institutions before it would meet NATO 
standards.
    As we consider the desire of these countries to join the Alliance, 
we should make clear that they have much work to do at home and that 
this work is their responsibility to undertake.
    What we should not do is give Russia a veto over NATO's decisions 
or consign these or any countries to some other country's sphere of 
influence.
    This is why the United States supports approving both countries 
entry into NATO's Membership Action Plan, the so-called MAP. MAP is not 
NATO membership. It is not a promise or guarantee of membership. It is 
simply a work program to help these countries make the progress they 
must make if they are to become NATO members someday, as NATO has 
already confirmed they will. What we should not do is give Russia a 
veto over NATO's decisions or consign these or any countries to a 
Russian sphere of influence.
    Russia has made clear that it would regard even a MAP for Georgia 
or Ukraine with hostility. We regret this position. We believe it is 
the wrong choice, both for the long-term security and stability of 
Russia's neighbors as well as for Russia itself. NATO's growing 
relations with nations east of the old Iron Curtain have brought 
greater security and stability; Moscow's reaction has produced anxiety 
and tension. Moscow should reconsider its course.
    We seek good relations with Russia. We take into account Russia's 
security concerns. But we also take account of the concerns and 
aspirations of people who live in the countries around Russia. Russian 
security cannot be achieved through imposing insecurity on its 
neighbors. We cannot, by lack of resolve, consign other countries to a 
Russian sphere of influence in which their future is limited to those 
aspirations that Moscow permits them to have. Free people have the 
right to choose their own path, and it is the policy of the United 
States, upheld by every administration since the end of the cold war, 
to respect and support their choices.
    Russia itself recognized this right when it signed the Founding Act 
on Mutual Relations, Cooperation and Security between NATO and the 
Russian Federation. One of the core principles of the Founding Act is 
``the aim of creating in Europe a common space of security and 
stability, without dividing lines or spheres of influence limiting the 
sovereignty of any state.''
                            looking forward
    NATO's mission remains the same: The collective defense of its 
members. Its impact on European security and peace was profound and 
positive first during the cold war and then in the aftermath of the 
collapse of the Soviet Bloc. The way in which NATO carries out its core 
tasks has and will continue to evolve to meet the changing threats. We 
have seen these in recent years: Terrorism, cyberattacks, and energy 
security. We have seen that threats may come from far afield.
    Since security in Europe is not complete, we have to consider the 
implications of Russia's attack on Georgia. Georgia is not a NATO 
member, and article 5 does not pertain to it. But the actions and the 
rhetoric coming from Russia's leaders have raised concerns by countries 
that are NATO members.
    NATO's routine work has always meant participation in collective 
defense planning, cooperative exercises, and staying alert to new 
threats and developments. Certainly the events of August have 
reinforced the importance of such thinking. Article 5 has and will 
continue to have, meaning for all of NATO's members.
    I wish to express my thanks to the committee for your bipartisan 
support over the years, not only for NATO enlargement, but to help NATO 
evolve from its cold war roots into an institution prepared for 21st-
century challenges. Our Nation's support for a ``Europe whole, free, 
and at peace'' has served as a beacon of hope for many countries that 
faced an uncertain future. Neither their development nor their freedom 
was guaranteed. Yet over 100 million Europeans in the past decade have 
found security, stability, and greater prosperity, in significant part 
as a result of being welcomed into the NATO Alliance. This has made 
America's work in the world that much easier, for it is a hallmark of 
our foreign policy that the spread of freedom and security benefits us 
as well as its immediate recipients. The advance of freedom and 
security in the world has sent a powerful message to many others, 
including those who still aspire to join: That there is a reward for 
putting cooperation over conflict.

    Senator Dodd. Thank you, Mr. Secretary.
    Secretary Fata.

 STATEMENT OF HON. DANIEL P. FATA, DEPUTY ASSISTANT SECRETARY 
     FOR EUROPEAN AND NATO POLICY, DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Mr. Fata. Mr. Chairman, Senator Lugar, thanks for the 
opportunity to be here today. I do not have an opening 
statement. I would like to go on the record, however, to say 
that myself and the Department concur with Secretary Fried's 
comments. What I heard today is quite often the same comments--
same commentary that I use when I've been overseas talking with 
allies, partners, and aspirants.
    At this point, sir, I'm prepared to answer any questions 
you or the--or any other members may have.
    Senator Dodd. Well, thank you very much. And what we'll do 
is, because there are so few of us here, I'll try and keep my 
comments and questions down, to about 10 minutes, and we'll 
just sort of act here on a more informal basis, unless we end 
up with a large participation, which is always hopeful.
    Let me begin. I'll direct my questions to you, Secretary 
Fried, and then, Secretary Fata, if you want to jump in at any 
point, back and forth, on this.
    The first question, I suppose, is a series of smaller 
questions about how Albania and Croatia see their role in this 
Alliance, and how they're likely to structure their militaries 
within NATO.
    By the way--I should point out, and my colleagues may know 
this, but we're fortunate today, to have with us 10 or 12 
members of the Parliament of Croatia. We'd like to recognize 
them. Are they here, these members of the Croatian Parliament? 
Why don't they stand up and just be recognized. And we want to 
welcome you to the Foreign Relations Committee. It's a pleasure 
to have you with us today. Thank you very much.
    I wonder if you could give us a general sense of what 
Croatia and Albania are thinking about their role in NATO. What 
do they see themselves as bringing to the Alliance? And do they 
see their defense, in European terms, to specialize and develop 
niche capacities within that Alliance? Or is it, as some would 
suggest here, maintaining sort of a self-contained forces, 
viewing their defense purely in national terms, rather than 
European terms? There's a series of questions there, and I 
wonder if you might address them.
    Mr. Fried. My colleague from the Defense Department may be 
able to answer some of the military specifics, but, in general, 
both countries recognize that, as members of NATO, they will 
have obligations to contribute to NATO missions; that is, to 
think of their role in general terms, and even in expeditionary 
terms, rather than purely local or regional terms.
    We made it clear to both countries that NATO had to go 
where the threats were, that in the 21st century, threats could 
come from quite far away--Afghanistan. Both countries have 
contributed forces to the--NATO's mission in ISAF. They have 
both developed expeditionary capabilities, they have developed 
niche capabilities enabling them to operate alongside NATO 
forces. They're quite proud of their contribution. They have 
made it clear that they look forward to working with us in NATO 
missions, wherever they may be.
    Senator Dodd. Secretary, any additional comments you want 
to make on that?
    Mr. Fata. What I would say to that, sir, the--both 
countries--Croatia and Albania--are transatlantic in mentality. 
It's not about territorial defense, it's not about even just 
the defense of Europe. They fully--both countries--I've been 
pleased, in my time in the department, to get the sense, from 
numerous different Defense Ministers, that they understand the 
obligations go far beyond Europe. As Secretary Fried mentioned, 
both countries are active contributors in Iraq and Afghanistan, 
have--I've been able to see their forces in both countries when 
I've visited, and have heard from commanding officers--United 
States commanding officers, the good performance that----
    Senator Dodd. Yes.
    Mr. Fata [continuing]. Both countries provide. Both are 
moving to end conscription, both are investing in--as a 
percentage of GDP toward defense, at 2 percent or above 2 
percent.
    Senator Dodd. That's the general requirement for a nation, 
is that correct? It was 2 percent?
    Mr. Fried. It is a NATO--it is a NATO guideline.
    Senator Dodd. How----
    Mr. Fried. Often honored, not always.
    Senator Dodd. Yes. Well, is there some concern you have 
about that?
    Mr. Fried. Their militaries--no, their military budgets 
have grown as their economies have grown. They have developed 
their forces well. And when I'm in both capitals, I--I sense a 
certain pride, in both countries, that they are able to 
participate in NATO operations. I should also say that Croatia, 
in particular, has been active and helpful in the Balkans, as 
has Albania, actually, acting as a--I think, a stabilizing 
force as we've dealt with issues of Kosovo independence. So, 
their more global vision has not detracted from their ability 
to play a helpful role in European security closer to home.
    Senator Dodd. Let me raise the question about cost, because 
obviously from a U.S. taxpayer standpoint, it's very much in 
the interest of our country to ask these questions. Do you have 
any estimates about what the cost of this addition will be to 
the United States or to the Alliance, financially?
    Mr. Fried. Our contributions to military development in 
these countries have been modest, and we have made it clear 
that they are responsible for funding their military 
operations. That said, the Department of Defense programs on 
military-to-military cooperation are, in my experience--and I'm 
saying this as a State Department person--among the best run 
and most efficient of any government overseas programs I've 
ever seen. We get a lot of impact for relatively modest 
budgetary input.
    But, that said, these countries are not looking for us to 
fund their militaries, they're looking at internal resources, 
and, as their economies grow, their defense budgets are growing 
with them.
    Senator Dodd. And so, do you have, specifically, the 
estimated expenses for upgrading the command-and-control 
systems or air-defense systems?
    Mr. Fata. No, sir; I don't have that.
    Senator Dodd. This is one of the problems. And I don't 
blame General Craddock, but this is where having a witness from 
DOD would have been very helpful this morning in these matters, 
so we could get some answers to the questions. But, I'll submit 
that question for the record, and maybe get something in 
writing back that would give us a sense of what the cost would 
be.


    [The information previously referred to follows:]


    Using the last two rounds of enlargement as guide, NATO estimates 
the total common-funded accession costs for Albania and Croatia at 
approximately $60M each, which includes estimated costs for C2, air-
defense, and facilities.
    Given uncertainties regarding the existing condition and capability 
of command-and-control networks, reception facilities, and air defense 
systems in Albania and Croatia, it is not possible to provide an 
accurate cost breakdown of command-and-control systems or air-defense 
systems at this time. Experience from prior enlargement rounds suggests 
that the cost of upgrading reception facilities and linking air defense 
systems will account for largest share of total common-funded accession 
costs.
    Refining the cost estimates will require additional site surveys 
and more detailed analyses. It will take several years to complete this 
iterative process


    Mr. Fried. Certainly will.
    Senator Dodd. And I appreciate your comments, generally----
    Mr. Fried. Certainly will.
    Senator Dodd. Let me ask, third, regarding Albania, there 
was, I'm told by those knowledgeable in this, that there's an 
extraordinary amount of unstable munitions that need to be 
destroyed in Albania. In March of this year, there was an 
explosion which took place at a military weapons factory, that 
killed 26 and injured 300 people. In the administration's 
unclassified report to Congress, dated May 30, 2008, entitled 
``Report to Congress on the Future Enlargement of NATO,'' you 
note that an investigation has been launched by the prosecutor 
general. And on page 10, the following appears, ``The 
prosecutor general's ability to conduct a thorough, meticulous, 
transparent, and independent investigation will prove crucial 
to the resolution, and prove a vital test of Albania's judicial 
and prosecutorial systems.''
    You also note that ``major government players are under 
immunity from prosecution.''
    I wonder if you could share with us the status of that 
investigation, and what does that say about the rule of law, 
transparency, and political accountability in Albania? And what 
do you think the Government in Albania has learned, or not 
learned, from this incident? And what does it say about their 
qualifications for NATO membership?
    Mr. Fried. There were clearly problems in the handling of 
those--of that munitions site that led to the explosion. The 
Government of Albania was deeply embarrassed by it. They have 
launched an investigation. I don't believe that investigation 
is complete. And certainly the process of lessons learned is 
not complete.
    We have urged the Government of Albania to follow this 
investigation, wherever it leads. It is likely to prove 
embarrassing to the government, because, as in any military 
problem, there are issues of accountability. Every country has 
them, and the question is not whether they have problems, but 
how they deal with them. And we've made it clear that they need 
to face this squarely, and they're in the process of going 
through this.
    Senator Dodd. Do you have any idea when that's going to be 
completed?
    Mr. Fried. Not specifically, but I can get this to you.


    [The information referred to above follows:]


    As of September 10, the Prosecutor General's Office is continuing 
its investigation into the March 15 explosion at the Gerdec munitions 
site in Albania. We understand that the investigation is nearing 
completion but cannot give an exact date when it will be completed. We 
would be happy to brief you further once the investigation is complete.


    Senator Dodd. I'd appreciate that very much.
    Mr. Fata. Mr. Chairman----
    Senator Dodd. Last--yes, go ahead. I'm sorry.
    Mr. Fata. No, I was just--I would just add, the 
investigation is ongoing. I don't think it is clear when the 
end date will be; however, our Embassy and others continue to--
and EUCOM--continue to press the Albanians to make sure this is 
as transparent and thorough as possible, because it won't just 
be the United States that'll be watching, it'll be the other 
25----
    Senator Dodd. Yes.
    Mr. Fata [continuing]. Vote-casting members----
    Senator Dodd. Yea.
    Mr. Fata [continuing]. That'll be watching this to see if 
those commitments to rule of law and transparency are actually 
being met.
    The New Jersey State National Guard went out for, I think 
it was 30 to 60 days to do some work with the Albanians on 
future cleanup of these kind of depots. That is not directly 
related to the investigation.
    Senator Dodd. Do you agree with that, by the way? I made 
the statement about this munitions problem that needs to be 
destroyed. Is that still a legitimately serious issue, in your 
view, generally speaking? Put aside this particular incident.
    Mr. Fried. It is certainly a legitimate issue. That is, 
these are depots that are unstable. They have to be disposed 
of. On the range of issues facing Albania, it is one of the--it 
is one of the issues; it is not, in my view, an issue of 
critical national importance. It's an issue of munitions----
    Senator Dodd. How about within the European community? Is 
it more of an issue with them?
    Mr. Fried. It is really a national issue and an issue that 
they have to fix, for their own reasons. But, it's something 
that is, like any military problem, going to be a learning 
experience for them. They're going to have to face up to this.
    Senator Dodd. Last, you've generally addressed this 
question in your opening statement, but let me ask it more 
specifically, regarding both Croatia and Albania. Croatia was 
ranked 64th out of 180 nations surveyed in Transparency 
International's 2007 Corruption Perceptions Index. Now, that's 
not bad, globally, I might point out, but it puts Croatia near 
the bottom in Europe and a number of states that are in the 
Alliance already. Albania was given an even worse rating, of 
105th out of 180 nations. How serious, in your view, is the 
corruption in Croatia and Albania? What are the implications 
for their role in NATO? And what are the Croatian and Albanian 
Governments doing to address this general problem?
    Mr. Fried. Corruption is a serious problem in both 
countries. In both--since 1989, we've become more experienced 
in the standard set of problems of post-Communist development, 
and corruption is particularly a problem. We've found that this 
takes quite a number of years to fix, and that, in countries 
that manage to tackle it successfully, progress tends to be 
uneven; that is, new institutions created from scratch, 
greenfield institutions, tend to be cleaner than old 
institutions that are simply rehatted after a change of 
government. Both countries have made progress. Both countries 
have committed themselves to deal with the corruption problem. 
I think that, as our experience in other European countries, 
including some old members of NATO, this thing--this sort of 
thing takes time, and we have to keep at it.
    Senator Dodd. I thank you.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    I'd like to ask, first of all, Secretary Fried: What 
strategic benefits will Albania and Croatia bring to NATO? Can 
you be fairly specific as to thoughts about their strategic 
benefit?
    Mr. Fried. The first benefit is that they will be 
contributing members to the Alliance. They will--they have 
already sent their troops abroad to contribute to NATO 
missions. The second benefit is that their admission to the 
Alliance, and their eventual admission into the European Union, 
will stabilize the Balkans and help make it an area of general 
peace and security, which is certain--which is profoundly in 
the American interest.
    NATO enlargement can help do for these countries what NATO 
enlargement did for Central Europe in the last decade. This is 
profoundly in the American interest. We have found that 
stability in Europe is a core United States interest, and that 
our interests have been advanced as NATO has expanded.
    Senator Lugar. What progress have the two nations made with 
regard to EU membership, and how is that process going?
    Mr. Fried. Croatia is, I think, on a reasonably fast track 
to EU membership. Albania is a little bit further behind. Both 
of them are clearly on track to join the European Union. The 
European Union is having something of enlargement fatigue after 
taking in 10 new members, but European countries recognize that 
they have a responsibility to take in all of the Balkan 
countries as these countries qualify for EU membership. So, 
they are on their way.
    NATO enlargement and EU enlargement, in parallel, 
constitute the institutions of a Europe whole, free, and at 
peace.
    Senator Lugar. Please outline what contribution Albania and 
Croatia can play in bringing stability to the Balkans, and, 
more specifically right now, Kosovo.
    Mr. Fried. Albania has already--it has been, and is, 
playing a very constructive role helping stabilize Kosovo and 
reaching out to the Albanian communities in Kosovo, in Serbia, 
in Macedonia, and in Montenegro. Albanian nationalism has taken 
on increasingly benign forms rather than malignant forms. This 
is certainly in our interest, as malignant nationalism in the 
Balkans tends to produce wars and killings. Albania, in the 
runup to Kosovo independence, was a source of wise counsel, 
urging patience on the part of the Kosovar leaders, distancing 
itself from any extremist nationalism, and generally acting 
exactly as we would want a NATO member to act: Responsibly, 
carefully, and constructively.
    Croatia has reached out to Serbia and to its own Serbian 
minority within the country. Croatia has demonstrated that 
Serbia also, like Croatia, can join the European mainstream.
    Croatia is also working for stability in Bosnia, reaching 
out to Macedonia. And, in general, when I go to Zagreb, I find 
that my Croatian colleagues are eager to work with us and the 
Europeans to help bring all the countries of the Balkans into 
Europe, following the path they and Slovenia have taken.
    Senator Lugar. Let me just add my welcome to the members of 
the Croatian Parliament who are here today for this hearing. 
Their presence here today to witness our consideration is very 
helpful. I am thankful to have the benefit of sharing thoughts 
and views with them.
    Let me make a comment and ask a question about Albania. In 
2004, in the summer of 2004, our Defense Department received 
word that--from Albanians, volunteering that nerve gas was in 
canisters above Tirana, the capital. As a part of my travels 
that summer, I was privileged to visit Albania for the first 
time, proceed up into the mountains, and to actually see these 
canisters lying on the ground. Many had been collected behind a 
fence, many were still to be found. Ultimately, this amounted 
to 16 metric tons of nerve gas. We are thankful that the 
Albanians contacted us with the hopes that we might have a 
program or a way to help them eliminate the threat. At the same 
time, they took us to sheds, where there were 90 MANPAD (Man-
portable Air-Defense Systems) missiles, which they promptly 
destroyed.
    I mention that because that was then, 2004, a Defense 
Department in Albania that was only very loosely connected with 
our Department of Defense. Thankfully, we had the ability to 
utilize the Nunn-Lugar Program in Albania. Congress had 
approved an amendment to the Nunn-Lugar program that allowed 
$50 million to be spent outside the former Soviet Union. 
Albania became the first country outside the former Soviet 
Union where the Nunn-Lugar program undertook its important 
work. Over a period of 2 years, all of the material was 
neutralized. In 2007, Senator Nunn joined me in Albania, 
celebrating Albania as the first nation in the world to get rid 
of all of its chemical weapons. They took great pride in that, 
and there were 200 officers of the Albanian Armed Forces, and 
their defense and foreign secretaries at a wonderful event 
celebrating this important milestone. Now, that's, you know, 
the good news.
    The bad news is that, from 2004, it was apparent that the 
corruption problems in the Albanian Goverment were profound. It 
was very difficult to tell who owned any piece of property, in 
the capital or elsewhere. The problems of prosecution in the 
government were completely out of bounds. Throughout this 
period of time, because of the Membership Action Plan, you and 
I and others were able to tell Albanian friends that reform 
will have to occur, that this is the criteria for membership. 
And I would report that I think very substantial changes have 
occurred in the prosecution system even in the last 6 months.
    Now, the dilemma is the one we've been talking about today: 
The amount of armament of all sorts in Albania was prodigious. 
The previous dictatorship stockpiled weapons and equipment all 
across the country, fearing invasion from every source. And, as 
a result, the Albanians themselves are still discovering, sadly 
enough, where all of it is.
    This is going to be a problem that plagues them, and now, 
if they become a member of NATO, the United States too. And 
it's one which we've got to exercise skill and patience. At the 
same time, the goodwill that they have to get rid of the stuff 
in their own country, I think, is critical, but let there be no 
mistake, it's a huge problem. And it was a sad moment when 
their Defense Minister resigned at the time of the explosion. I 
think he was a very able public servant, one of the new people 
coming up in democracy, but, nevertheless, took responsibility, 
that it was on his watch that this explosion occurred and some 
people were killed.
    So, it is less a threat right now to the rest of the world 
than it is to Albanians, but it is a fact of life that won't go 
away instantly. And the prosecution of criminals and those 
guilty of corruption, likewise, is going to be a very arduous 
process for Albanian democracy, with all the fledgling 
institutions.
    But, I mention that, because I think it's an important 
fact. And when Albania's ranking, in terms of transparency, 
comes in that low, that still is a fact, too. Changes have been 
made, and I think will continue to improve. But, membership in 
NATO will probably have very salutary results if we are able to 
work closely, as I'm certain we will, with them.
    Finally, their contributions, as you say, to demonstrate 
their expeditionary capabilities are really remarkable. All of 
us have talked about the very few people in NATO, all together, 
who are in shape to do expeditionary work. Here are two very 
new candidates who, with these fledgling systems, have 
demonstrated that NATO's problems are not just within the 
confines of Europe, but sometimes they extend to Afghanistan, 
out-of-area missions, and they have responded. So, this is a 
very strong point in their favor, and this is why I feel very 
strongly that membership is a good idea and will support that 
in this committee and on the Senate floor.
    But, I thank you very much, Secretary Fried and Secretary 
Fata, for coming this morning for this timely hearing.
    Senator Dodd. Thank you, Senator, very, very much.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Fried, I listened to you yesterday, and I 
listened to you today. I appreciate your testimony on both 
days.
    I would like to ask you to give your thoughts on something. 
You've mentioned, both days, your concern about two things with 
respect to Russia, among others. One is the notion of giving 
Russia a veto over NATO considerations through its diplomatic 
actions, and the other, you've mentioned, several times over 
the past couple of days, the notion of Russia denoting that 
there are certain spheres of influence, and that these 
countries, among others, may be a part of that. At the same 
time, from an American perspective, my concerns--and Senator 
Warner's comments yesterday affirmed those--are that we are 
not, principally, in a position of diplomatically having to 
address this notion that Russia might be giving a veto over 
NATO, so much as we should be concerned about the idea of 
mandating United States military involvement to signatories in 
these types of treaties. And, on the one hand, we might be 
talking about Russian spheres of influence, but, on the other, 
as you mentioned in your testimony today, we are expanding a 
security umbrella, and with that comes the notion of mandatory 
military involvement.
    And, again, as you mentioned in your testimony, the recent 
activities in Georgia do illuminate this whole issue. You 
mentioned, yesterday, when asked by Senator Warner, that, if 
Georgia had been actually a member of NATO when these incidents 
occurred, that there would have been an expectation of NATO 
military involvement. Either you or Secretary Edelman mentioned 
this. I think all four of you, actually, testifying yesterday, 
did. So, this is obviously a very grave commitment that we are 
making, in addition to the ideological and market issues that 
come to play.
    So, my first question to you would be, To what extent do 
you see any of those issues coming to play in the countries 
that are before us today?
    Mr. Fried. Senator, I profoundly agree with you that an 
article 5 commitment is a solemn and serious one. It is not to 
be given lightly. And I recognize that, and I agree with your 
logic.
    I think that, with the case of Croatia and Albania, the 
contingent liability, as it were, the meaning of the U.S. 
defense commitment, is well within our means. The external 
threats to these countries are much less. The post-Yugoslav 
wars have ended. The relations between these countries and 
their neighbors are good or excellent. There are not border 
disputes or hostile relations. Croatia fought for its freedom 
in the Yugoslav wars. I very much doubt it will have to fight 
again.
    Croatia and Albania both know that NATO membership will 
mean that the Alliance asks things of them, their commitment to 
NATO missions abroad. Georgia and Ukraine pose different 
questions. That's not the subject of this hearing. But, again, 
I completely agree that these are profoundly serious questions 
and deserve close examination, as well as the implications of 
article 5 in the light of what Russia has done, a separate 
issue than the one we're dealing with today, but an important 
one, I agree.
    Senator Webb. All right. So, it would be your view that 
that issue is not meaningfully in play with these countries in 
the same sense as it----
    Mr. Fried. Well----
    Senator Webb [continuing]. Is in Georgia and Ukraine.
    Mr. Fried [continuing]. Certainly the meaning of article 5 
is the same. That is, by bringing these countries into NATO, we 
would assume responsibilities----
    Senator Webb. I understand that.
    Mr. Fried [continuing]. That is, the Alliance would assume 
responsibilities for their collective defense. So, certainly 
there is--that meaning is clear. But, if I understood your 
question correctly, I think the answer is that the actual 
military threat to these countries is orders-of-magnitude less, 
and that the requirement to defend them can be much more easily 
met. This is a much more benign security environment than 
others we might talk about, if I understood your----
    Senator Webb. Right.
    Mr. Fried [continuing]. Question.
    Senator Webb. That's really where I was trying to----
    Mr. Fried. Yes, sir.
    Senator Webb [continuing]. To go with the question. I think 
that if you look at the changing character of NATO with these 
new countries coming in--I mentioned, yesterday, my personal 
view that, in many instances, we have moved from allies to 
protectorates. And there are people who could disagree with 
that, but I think, in historical terms, you could make that 
point. We need to, on a cost--potential cost-benefit ratio, 
examine that. Secretary Gates recently had mentioned it in NATO 
now, there were countries who--that were going to fight, and 
there were countries that were going to be protected, 
essentially.
    I know that France and Germany have expressed hesitations 
with respect to Ukraine and Georgia. What are their positions? 
Are France and Germany supportive of NATO membership of the 
countries before us today?
    Mr. Fried. My French and German colleagues would be amused 
if I tried to answer on behalf of their governments, but I'll 
do my best anyway, and I'll take the complaints when they phone 
me up this afternoon. [Laughter.]
    Mr. Fried. The French----
    Senator Webb. Just to insulate you a little bit, when I was 
in the Pentagon years ago and I would go to the NATO 
conferences when France was not an official member. The French 
representative was very likely to stand up and give about a 10-
minute diatribe and just say, ``But, we are only observers.'' 
[Laughter.]
    Mr. Fried. The French--Chancellor Merkel and President 
Sarkozy were present at Bucharest, where NATO's leaders 
declared that Georgia and Ukraine will be members of the 
Alliance someday. The chancellor--Chancellor Merkel was active 
in forging that compromise. This was not a bureaucrat-driven 
process, this was leaders at the table. It was remarkable.
    They have--both governments have expressed caution and the 
need for prudence in extending article 5 commitments to these 
countries. They have also pointed out that neither country is 
ready now for NATO membership.
    Those views have weight and are serious. The question 
before NATO is not the membership--a membership invitation to 
these countries, the question is whether or not we will extend 
a Membership Action Plan to these countries, allowing them to 
do the work, over what will be many years, to become ready for 
NATO membership.
    Senator Webb. But, the point being, since my time is 
running out, is that France and Germany do not, today, support 
NATO membership for Georgia and Ukraine. But, do they, with the 
countries before us today?
    Mr. Fried. They support an invitation to Croatia and 
Albania now. NATO has extended that invitation. They supported 
it. No country supports an invitation to Georgia or Ukraine 
now, including the U.S. administration. So, our positions are 
not all that far apart.
    But, to answer your question plainly, yes, they're behind 
Albania and Croatia.
    Senator Webb. And it would be fair to say that they are 
more hesitant than the United States when it comes to the other 
two countries.
    Mr. Fried. They have----
    Senator Webb. Or show----
    Mr. Fried. They--to be straightforward, they had more 
reservations about MAP than we did, yes, sir.
    Senator Webb. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dodd. Thank you very much.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And thank you for your testimony.
    I was in Georgia, also, a couple of weeks ago, and met with 
President Saakashvili, and went up into Gori, where the 
bombings had taken place. And I know that this hearing is 
primarily about Croatia and Albania, who appear to have been, 
just, outstanding in their movement toward the ideals of NATO. 
And so, the questions I'm going to ask really relate to just 
overall NATO expansion, not necessarily these countries. And I 
realize they're a little bit outside the sphere that Russia 
would be most concerned about, that Georgia and Ukraine are 
not. And so, the questions really relate more to them.
    But, as I look at--as I watch what's happened with NATO, 
and I watch, sometimes, caveats, if you will, that are put in 
place as it relates to us working together in places like 
Afghanistan and other places, I wonder, militarily--I know that 
we want to address the democratization of these countries and 
then moving ahead economically, with free enterprise and all 
that, but let's just focus strictly on the military component.
    We--is it universally agreed within the Pentagon and within 
the State Department that this does not, in some ways, weaken 
our country, when you look at expanding NATO so considerably? 
Does it create conflicts in which we might otherwise not be 
involved unnecessarily? Does it, in some way, spread us thin 
and cause us to be involved in things that we might not 
otherwise be involved in, unnecessarily?
    Mr. Fried. Sir, the experience of NATO expansion allows me 
to answer your question and say, happily, no, it has not 
involved us in conflicts; no, it has not spread us thin. We 
have found that NATO enlargement helped end conflicts, or 
attenuate conflicts, in Central Europe. And the countries that 
join NATO, far from dragging us into other conflicts, have 
become contributing nations to NATO's missions abroad. In the 
case of some of them, particularly Poland, whose military is 
both large and capable, active contributors, they've gone--
they, the Romanians, smaller countries, like Estonia, have gone 
where the fighting is in Afghanistan, to tough places.
    But, I'm happy to be able to report to you that NATO 
enlargement, in practice, has turned out very well for us, and 
some of the fears that were expressed when this issue was first 
debated, starting 10 years ago, have not been realized.
    Senator Corker. We read lots of accounts about Russia, in 
essence, saying that Georgia is their line in the sand. And I 
think about how Americans would react if Georgia, for instance, 
was playing a role in Mexico or in Canada, right on our border, 
and you--you know, a lot will be written about what actually 
happened in Georgia and what actually caused, you know, some of 
the conflicts to get to the height that they got to there, but 
talk to us a little bit, if you will, about, from your 
position, the dynamics that are in play as it relates to 
Georgia and Ukraine. And is, in fact, this something--is this 
something that there should be some degree of U.S. empathy with 
as it relates to us being right there--NATO being right on 
their border in a country that was formerly part of the Soviet 
bloc?
    Mr. Fried. The administration--this administration and the 
previous administration gave this question a lot of thought. 
The Russians do regard NATO as a hostile military alliance, 
and, by coming closer to Russia's borders, Russia regards NATO 
as a threat. Our view is radically different. We think that 
NATO has brought stability and security to Europe. It has 
helped countries of the former Soviet bloc reconcile their 
differences, stabilize their democracies, and become benign.
    The area of Europe to Russia's west, the part that used to 
be the Soviet bloc and is now in NATO, is more peaceful and 
more secure, and is, therefore, a better neighbor to Russia, 
than this region has been in all of Russia's history. NATO 
enlargement, in our view, has benefited Russia. Now, I don't 
expect them to thank us. But, actually, they probably should, 
because invasions of Russia came, not from democracies to 
Russia's west, but from aggressive dictators to Russia's west. 
And now, thanks to NATO, the countries in Europe are democratic 
and peacefulminded. They don't have disputes with themselves, 
they don't like war. This is a good thing for everyone.
    Senator Corker. OK. As it relates to NATO itself, I think 
we are seeing the future as a world, looking at the way energy 
is going to play a role, geopolitically in the world, I think 
we all understand the leverage that those countries that have 
energy have over those countries that need energy. But, going 
back to NATO, specifically, if Russia decided that--you know, 
to be really low-level, they just were going to turn the energy 
pipeline off, if you will, that fed into Europe, over some 
political issue, if you will, that NATO was grappling with, is 
that one of those areas--and it literally created tremendous 
burdens on those countries, economically, politically, civilly, 
and every other way--how would that--would that, in any way, 
involve NATO, or is it strictly as it relates to military 
action?
    Mr. Fried. This is an important question, and it is not 
wholly hypothetical because, in recent years, we've seen Russia 
actually use energy apparently to exert political pressure. 
NATO has started to debate, internally, exactly the question 
you raised, Senator, which is, Is energy security an area of 
NATO's interest? And, if so, what is--can NATO's value-added be 
in energy security? Protecting pipelines and infrastructure 
from terrorists? Protecting undersea pipelines from attack? 
Helping countries develop alternative energy routes, so that 
they're not as dependent upon Russia? These are all things NATO 
is debating.
    The European Union has a role, also, in energy, and many 
of--many NATO members are now looking at ways to diversify 
their sources of energy so that they avoid exactly the kind of 
dependence that you talked about.
    This is an active issue----
    Senator Corker. So, it's a--the whole issue of energy and, 
potentially, a country like Russia doing something that 
adversely affected one of our NATO allies, could, in fact, 
involve military forces. It's--you're saying it's a gray area 
that's being hashed out at this moment. Is that what you're 
saying?
    Mr. Fried. Well, I have to be careful about the use of 
``military forces.'' NATO has discussed, occasionally, a role 
in protecting energy infrastructure. But, generally, these 
issues are regarded to be as economic and financial.
    Senator Corker. OK. Let me ask--let me ask--I know you're 
not going to really get into the meat of that, and shouldn't, 
probably. I understand. Let me--the--one last question.
    Many of these--and I want to--I know this is being 
translated to our Croatian friends, and we thank you for your 
friendship, and I hope these questions aren't heard the wrong 
way. But, many of these countries, these democracies, are new 
democracies. And we're glad that they're moving along and, 
certainly, embracing free enterprise. And I have to tell you, I 
was actually stunned to meet many of the Georgian leaders and 
to see how, in many ways, they're doing things in a better way 
than we are, okay, in our own country. In many ways, obviously 
they are not. But, these countries are young democracies, and, 
therefore, in some cases, there's only one party that really is 
in power. OK? And sometimes that enables countries to do very 
unintelligent things. OK? Things happen far more quickly than 
they might in a full-fledged democracy. In the event one of 
these NATO allies, one of these new friends of ours--and this 
is just hypothetical--were to do something really crazy, like 
could happen with one of the bordering countries to Russia--do 
something really crazy, that wasn't very thoughtful, and it did 
involve them being encroached upon in a heavy way by Russia, is 
NATO automatically obliged to come to the defense, if the 
country itself acted in a very unintelligent manner?
    Mr. Fried. One of the criteria for NATO membership--and it 
was among the original Perry criteria from 1995--is good 
relations with neighbors. And we want to make sure that the 
countries we bring into NATO have sufficient democratic 
experience that they've had a peaceful change of government, 
not a one-party government, and that they are past that stage 
of being tempted to do, as you put it, really stupid things. We 
want to make sure that NATO countries--that NATO members are 
sufficiently mature that our confidence level is very high that 
this question won't come about.
    Our confidence level in Croatia and Albania is high. We 
saw, during the Kosovo independence issue, that Albania played 
an extraordinarily responsible, careful role, thinking of 
itself as a NATO--a future NATO member. Likewise, Croatia.
    So, this--the question that you raised, we need to preempt 
by making sure that the countries we invite to join our 
alliance are not countries that are going to do--take these 
kinds of steps to which you referred. That's why we have to be 
careful and press these countries very hard during the 
Membership Action Plan process.
    NATO standards have to be very high standards.
    Senator Corker. Thank you, Mr. Chairman.
    And I realize the preemptive efforts that need to take 
place, sometimes things change, and I consider that, not 
unfairly, to be an unanswered question that--your response, 
just then.
    But, Mr. Chairman, I thank you for the--having these 
hearings, thank our witnesses, and certainly thank our friends 
in Croatia for being here.
    Senator Dodd. And also to compliment the Secretary in a 
very artful answer.
    [Laughter.]
    Senator Dodd [continuing]. To a very different question.
    Senator Cardin, welcome.
    Senator Cardin. Well, thank you, Chairman Dodd. Thank you 
very much for conducting these hearings. And I thank our 
witnesses for being here.
    Earlier this year, the Helsinki Commission held hearings on 
NATO expansion, and, at that time, I expressed my support for 
both Croatia and Albania. I think it's in our interest for NATO 
expansion in these two countries.
    But, I want to follow in a little bit different line from 
Senator Corker's inquiries, in that these are young 
democracies, and there are concerns as to how rapidly they are 
adhering to international commitments, whether they are NATO 
commitments, OSCE (Organization for Security and Cooperation in 
Europe) commitments, or commitments that we expect from a 
democratic state.
    In Croatia's case, their record has been really remarkable. 
They have moved very, very quickly to establish open, free 
elections, and to do what we would expect of a more mature 
democracy.
    I want to talk, a few minutes, about Albania. And, again, I 
preface this by saying I support the course that we're 
following in Albania on NATO expansion. But, Albania has 
serious concerns--at least I believe they do--in regards to 
corruption, including within their Department of Defense. There 
is a concern as to whether they will meet OSCE commitments as 
it relates to next year's elections. So, I would like to get 
your take as to what progress we expect in Albania prior to 
NATO expansion and whether we can expect continued reform in 
that country so that, when the elections are held next year, we 
have confidence that the OSCE commitments for fair and open 
elections will be adhered to in Albania.
    Mr. Fried. It is a very--it is very fair to expect that the 
administration will continue to press Albania to meet all of 
its commitments, to strengthen and deepen its democratic 
institutions and practices, to continue to fight against 
corruption, and to build the elements of a modern state. This 
is a fair request, and I can report to you that that is exactly 
the intention of this administration. I believe it will be the 
intention of the next administration. And our experience in 
NATO enlargement suggests that countries, once admitted to the 
Alliance, do continue their reforms. They don't stop, breathe a 
sigh of relief, and say, ``Well, we're done.'' They continue, 
especially because EU enlargement comes next, and it has a 
whole other set of criteria.
    I can tell you that Ambassador Withers, the U.S. Ambassador 
in Tirana, is making this issue--that is, the deepening of 
democratic institutions, the fight against corruption--his 
principal issue. That is his issue. As important as other 
things are, he believes that Albania has work to do, and he is 
pressing very hard, with the full support of the State 
Department and the rest of the United States Government.
    That said, what we expect from the Albanians is really to 
continue their current pace of reforms. They've been moving in 
the right direction, they've been taking some tough, necessary 
calls on anticorruption, they've had elections and smooth 
transitions between one party and another. American influence 
in Albania is pretty high right now, our credibility is high, 
and, frankly, we intend to use it to keep advancing this 
agenda, working with the government, working with the 
opposition and all the different players there.
    Senator Cardin. Well, I thank you for that answer. That's 
very, very encouraging, and the answer I had hoped for. The 
U.S. Helsinki Commission has placed a very high priority on 
fighting corruption, and we find that to be a common theme in 
the emerging democracies, that they have serious issues of 
dealing with the remnants of corruption. In some cases, it's 
been extremely difficult. I mention Ukraine in that regard. 
They've had a major problem in wiping out the type of 
corruption that was so systematic in their government.
    Albania has this issue, and it's continuing. And I am 
pleased with progress that has been made, so I agree with your 
assessment. And I am pleased that you will continue to work 
with the Albanian Government to make it clear that higher 
expectations are desired.
    And I think you're right about Europe. I think, with the 
Europe expansions, this is an issue that is becoming a front-
and-center issue, and I think Albania understands that we're 
not doing away with our expectations just because they reach 
the plateau of NATO membership. And I think that's an important 
point for us to underscore.
    I want to ask you a second question, which has been a--some 
of--our theme of some of our questions, which go beyond just 
the expansion of Albania and Croatia. Looking at Russia's 
influence, looking at the impact they had on the Bucharest 
Summit--and you can say that we all agree that there will be 
future expansion in regards to Georgia and Ukraine, but the 
plain facts were that, in Bucharest, the way that that played 
out was different than the United States desired. And Russia 
had an influence in the decisions made at that summit. We now 
have Russia using its military might in Georgia.
    So, I guess my question to you is: Are we reevaluating our 
strategies as it relates to NATO? Are we looking at the 
realities of Russia's influence and are trying to develop 
strategies that are consistent with the purpose of NATO, but 
recognizing the fact that Russia is exercising a different role 
today than they were just a few years ago?
    Mr. Fried. NATO countries are, indeed, consulting about the 
implications of Russia's attack on Georgia. NATO held an 
emergency foreign ministerial meeting in the middle of August 
devoted to exactly this question. Many NATO countries, 
particularly the ones with, let us say, deep and personal 
experience of Russian pressure, are concerned by what Russia's 
attack on Georgia means for them. This is something the 
Alliance is going to have to think about and grapple with for 
some time. We're working very closely with our allies, both 
through NATO and the European Union, in devising responses, 
both tactical and strategic.
    With respect to Bucharest, Chancellor Merkel made clear--
and I believe her--that her concerns about Georgia and a 
Membership Action Plan had to do with concerns about Georgia, 
not some sort of cave to Russia. I believe that. She knows the 
Russians very well, and she was helpful in forging the 
compromise at the Bucharest Summit.
    But, that said, the premise of your question is right. That 
is, NATO has to think about Russia and our long-term relations 
with Russia, and that is now a work in progress. We want to do 
that thoughtfully, rather than in haste, but we have to do it.
    Senator Cardin. Well, I thank you. I really appreciate your 
answers. I would just hope that we could work closely together, 
the executive department's activities here, along with 
Congress, because I do think we need to rethink how we can 
engage Russia, in a constructive way, but very firm, about our 
standards in which military intervention in Georgia is just 
wrong. And we cannot allow that type of activity to take place, 
but we have to figure out ways to have a more effective 
engagement with Russia. And it seems to me NATO could play a 
very important role in that strategy.
    Mr. Fried. I look forward to working with this committee 
and with you, sir.
    Senator Cardin. Thank you.
    Mr. Chairman, I'll yield back the balance of my time.
    Senator Dodd. Thank you very much, Senator.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    I learned about everything I need to know about Albania and 
Croatia from the excellent questions from Senator Lugar and 
yourself, and so, I'll ask just a couple of questions related 
to NATO, overall, and more theoretical questions for you, Mr. 
Fried.
    There have been some concerns that if Georgia had been a 
member of NATO, that we would have had the responsibility, 
obviously, to defend them in that situation. What would be your 
perspective or opinion? If Georgia had been a member of NATO, 
would Russia have even attacked them?
    Mr. Fried. There are two parts to a proper answer to that 
question.
    The first part is: For a country to be invited to NATO, we 
would have to have confidence that that country, according to 
the Perry principles when we started out this process in the 
1990s, had good relations with its neighbors and a responsible 
foreign policy.
    The second part of that answer is: Once we were satisfied 
and made the solemn commitment to extend NATO membership and an 
article 5 commitment to a given country, that commitment means 
something. And, yes, Russia would have to take it into account. 
But, it is not a commitment to be given lightly, and this 
committee has made clear, through every round of NATO 
enlargement, that that commitment is most solemn and serious.
    So, I think that Russia would have to take that into 
account, but it's--an article 5 commitment is nothing you 
simply write down and send through the mail. It follows years 
of building confidence, of hard work that these countries--that 
aspirant countries have to do.
    Senator DeMint. Just--the question of enlargement, you've 
expressed an opinion that this has been--has generally 
strengthened NATO and created more peaceful partners, which I 
think is altogether true. One concern I have about enlargement, 
it's important that NATO have--the member countries have common 
interests, common threats, in order to keep that cohesiveness 
and, I guess, sense of urgency. My concern, as I think has 
already been expressed, is, as we get a more diverse group of 
members of NATO, some countries that still have serious 
problems with corruption, do you believe that the ability of 
NATO to act in unison to honor the article 5--my concern is--
like with the United Nations, is, the interests are so varied 
and diverse that they can no longer develop a consensus on what 
to do. Could that be happening with NATO as we expand into many 
countries with many different cultures and politics, in effect?
    Mr. Fried. I remember that we had to deal with just this 
question when we debated and thought about earlier rounds of 
enlargement. And I'm happy to report to you, sir, that the 
addition of the seven new members after 2002 did not complicate 
NATO's work. In fact, the United States found them to be 
excellent allies who saw the world very much as we did; that 
is, they understood that their freedom and ours was of a whole. 
And, how shall I put this, when NATO has trouble reaching 
consensus, it is usually not the new members who have 
complicated it. [Laughter.]
    And I'm sure other NATO members would say the same about 
the United States. NATO does work, though. It has worked, in 
practice, as a larger alliance, and we have found that we have 
done--made hard decisions and done difficult things together. 
The experience of a larger alliance has been a good one. So, 
your question, sir, is a fair one. The answer can be one, 
thankfully, based on good experience rather than bad.
    Senator DeMint. Would you say, generally, that the mission 
of NATO is seen as more important to its member nations now 
than 10 years ago? My sense was, as the Soviet Union broke up 
and--that there seemed to be a declining threat, that the 
importance of NATO seemed to decline. But, recently, with 
Russia's activities and obviously what's going on in 
Afghanistan and Asia, the sense--my sense is that the 
importance of NATO may have increased significantly with its 
member nations. Is that true?
    Mr. Fried. I would not want to suggest, because I don't--I 
think it's not true that NATO needs an external threat to be 
coherent. We have found, contemplating 21st-century threats, 
that NATO has a role and has found a role in ways far afield 
from where we thought the original article 5 threat would come. 
NATO is the principal security arm of the transatlantic 
community of democracies. NATO invoked article 5 to counter an 
attack on the United States that originated in Afghanistan. No 
one thought that, in their wildest scenario.
    So, NATO is adapting to threats of the 21st century. Its 
core mission remains exactly the same, which is the collective 
defense of its members. The way in which it carries out this 
mission will change.
    Now, we want to think through the implications of Russia's 
attack on Georgia, but NATO is not looking for monsters to 
destroy, it's looking for ways to secure peace and freedom of 
its members, and work in cooperation with other nations around 
the world.
    Senator DeMint. Do you believe that the NATO nations are 
solidly committed to the NATO mission in Afghanistan? And do 
you believe, if that mission fails or falters, that that could 
have a long-term impact on NATO itself?
    Mr. Fried. There are 25,000 non-U.S. NATO troops in 
Afghanistan now. Some of them are in the hottest places--the 
Dutch, the Canadians, the Estonians--the Poles have joined us 
in the east, and the Germans are doing a good job in the north; 
the Italians and Spanish, a good job in the west. You're quite 
right that a successful mission in Afghanistan will be good for 
NATO, a failed mission would be terrible. There are challenges 
in Afghanistan, to be sure. This is a tough mission, and we're 
learning. But, we've made progress, and we've got to--we've got 
to learn the lessons and succeed.
    Senator DeMint. Yes. I very much appreciate your answers, 
and would add my thank you to the folks from Croatia who are 
here today.
    And, Mr. Chairman, I'll yield back the balance of my time.
    Senator Dodd. Thank you very much, Senator. I appreciate it 
very much.
    First of all, I should have recognized the two ambassadors. 
We have the ambassadors from Croatia and Albania with us in the 
audience, as well, today. We appreciate your presence here with 
us. Thank you very much for coming, both of you.
    Let me raise a couple of additional questions. This has 
been very worthwhile, and I appreciate your answers.
    NATO's Secretary General Scheffer has set a target date of 
admitting Croatia and Albania, I think, for April of next year, 
April 7, if I'm correct. One, is that a realistic timeline, 
Secretary Fried? And two, share with us--if you can--and again, 
I appreciate your trying to describe both French and German 
reactions to certain things, but since you started that line, 
please share with the committee what, if any, European concerns 
there are regarding either the Croatian or Albanian accession.
    Mr. Fried. Support for the NATO invitation to Croatia and 
Albania was overwhelming at the Bucharest Summit. I would say 
that there was enthusiasm, there was no opposition, there was 
some regret that Macedonia, because of the name issue, was not 
invited. But, I would say that this was a decision that NATO 
took with enthusiasm, having had quite a bit of experience with 
both countries.
    As to the timeline, I would never presume to discuss the 
timelines of the U.S. Senate or this committee. Past experience 
suggests that having it all done by April is tight, but doable. 
The last time we went through this, the invitations were 
extended in November 2002. Senate ratification came in May of 
2003. So, that's--past precedent may mean something, but it's 
not for me to say.
    Senator Dodd. Yes. Senator DeMint and Senator Corker raised 
the question, and Senator Cardin did, as well, about the issue 
of the growing number of NATO members--I guess I'm influenced 
by being a member of this body because when I started thinking 
about the growing number of members trying to get decisions on 
anything, how hard it can be to make those decisions. As you 
watch the size of NATO increase, in very different countries--
of course there is a commonality in these countries, that we've 
talked about here, as part of the accession process, and 
embracing the Perry principles, and critically important is 
that process that nations are going through, before reaching 
that point of actually becoming member states. Now, 
hypothetical questions are really impossible to address, 
obviously. But, with the growing number of members, as you 
increase the numbers, that the scenarios also increase, the 
possibilities for disagreement increase. While all nations are 
embracing the same principles, obviously there are different 
interests. Given all of this, is there any thought at all as to 
any different trigger mechanisms within NATO to respond in an 
article 5 fashion. I'm just curious whether or not there's been 
any thought given to this issue. What would be the reaction of 
member states if all of a sudden they were to be considered 
something less of an absolutely coequal partner of this 
relationship?
    Mr. Fried. We have always insisted that NATO is a one-tier 
alliance. That meant that article 5 meant the same thing to 
everyone. It also meant that countries had to shoulder their 
responsibilities. As Secretary Gates has said, you can't have a 
two-tier alliance of fighters and watchers. Neither can you 
have a two-tier alliance of article 5 and not quite article 5. 
So, we do, as a regular practice, urge allies to abandon 
caveats and to contribute to where the fighting is hot.
    From time to time, we've thought about NATO's internal 
machinery and how to make it more efficient. But, the consensus 
principle has worked. And, in particular, with respect to 
article 5, we want to keep that clean.
    People have talked about the growth of NATO and the 
theoretical issue of, How large can it be and still function? 
But, the number of aspirant nations is not infinite. There are 
a finite number of countries that are interested in NATO 
membership. Georgia and Ukraine are interested. There may be 
countries in the Balkans. Macedonia certainly is, and we regard 
them as a viable aspirant. Eventually Montenegro, maybe Bosnia, 
Serbia. But, it's a limited number. And we can see when they're 
ready, and take this, based on the individual merits and our 
views at the time.
    Senator Dodd. I apologize, maybe I should know this--but is 
there a default mechanism if a Member State decided, in its own 
interests, that it did not want to agree with an article 5 
request, and decided, in a democratic fashion--for example, 
maybe their parliament votes and says, ``You know, we're not 
going to Iraq,'' or, ``We're not going to Afghanistan,'' or 
someplace where that decision's already been made--what is 
NATO's ability to respond to a nation-state that makes that 
decision?
    Mr. Fried. If a country opts out of a NATO mission, we 
don't have a means to force them to opt in. This isn't the 
Warsaw Pact. Countries will make their own decisions. The 
experience in Afghanistan suggests that countries are serious 
about NATO missions. That's why we've got 25,000 troops. And 
when we asked countries to contribute, the new members were at 
the head of the line. Poland came in and said, ``We're in with 
a combat battalion in the east, and combat helicopters.'' So, 
that's a fighting new ally. Others have gone within their means 
to where the fighting was hot. So, the experience has been a 
pretty good one. And it's also important that we work the 
politics. That is, we work with Europe so that Europe and the 
United States, in NATO, believe that we are part of a common 
community, that we're in this together, and that kind of 
tending the garden and sense of solidarity and common purpose 
is important.
    Senator Dodd. Well, I hope that's the case. Not to draw the 
analogies too tightly, but new members of clubs are always more 
willing to volunteer, it seems to me, than those who have been 
in the clubs for some length of time.
    Mr. Fried. Although, to be fair, the Dutch took on a very 
tough----
    Senator Dodd. Yes; they did.
    Mr. Fried [continuing]. Role in Uruzgan. They knew it was 
hard, and they did it anyway.
    Senator Dodd. Tell me about Serbia and as we look down the 
road, given the fact that these former members of Yugoslavia 
are coming together here, and the possibility of Bosnia coming 
in, is it our hope down the road, that this effort, in addition 
to the things you've otherwise described here, would also 
result in Serbia becoming a member of NATO?
    Mr. Fried. Certainly. We hope that Serbia sees the prospect 
of NATO membership and EU membership as its future. Now, Serbia 
has a long way to go. They basically have a strategic choice to 
make between a nationalist past and a European future. They 
don't have to want to join NATO to achieve this European 
future. That's up to them. But, as they see Slovenia in NATO 
and the European Union, as they see Croatia on its way to both 
institutions, there are a lot of Serbs--some people--some of 
them, I've known for 25, 30 years--who are asking themselves, 
``Well, why not us? And if Croatia--why should we opt out of 
this European future?''--which is exactly what we want to 
inspire.
    Senator Dodd. Yes.
    Mr. Fried. We want them to see that this future is real, it 
isn't a mirage. And that can help change the politics.
    President Tadic of Serbia has said he's opting for a 
European future. And we want to help him go that route, as he 
makes it possible for us to do so.
    Senator Dodd. Let me come back to Croatia, just briefly for 
a minute, because all of us here, particularly Senator Lugar 
and myself and others who are members of this committee, recall 
the terrible hardship the Croatians were under with that 
terrible war, and how many people suffered terribly. And we 
want to convey to the members of the Croatian Parliament to 
convey, universally from this committee and our colleagues in 
the Senate, our deepest sympathies to what the Croatian people 
went through as a result of that conflict. But, I'd like to ask 
just a couple of legacy questions about this issue.
    What is the status of ethnic Serbs, who have returned to 
Croatia, and how have they been treated? How cooperative has 
Croatia been in investigating and prosecuting war criminals in 
The Hague? And, finally, what is your assessment of the 
relationship between Croatia and Serbia today?
    Mr. Fried. Croatia has done, in general, a commendable job 
of dealing with the issues of nationalism and the breakup of 
the former Yugoslavia. I believe that the current Croatian 
Government now includes, as a coalition partner, the party of 
the minority Serb community in that country. It's a good thing. 
I think that resettlement has taken place, and certainly, how 
shall I put it, the feel of Croatian politics is that 
nationalism has just sort of dissipated and the party that was 
once a nationalist party has become a center-right party and 
embraced a European identity and political culture, all to the 
good.
    These are laudable things, and it means that countries 
coming out of a nationalist past in the Balkans can 
successfully make that transition to a European future. And 
nationalist politics in Croatia tends to be fringe politics, 
not mainstream politics. A great success for that country.
    Senator Dodd. Yes. Hague tribunal?
    Mr. Fried. As I recall, the last serious--the last major 
war criminal was apprehended. And I can't remember the status 
of the trial, but the cooperation has been good. That was an--a 
tough arrest. It's always hard for these countries to face up 
to the fact that some people who claim to be national heroes 
weren't really heroes, and I think Croatia has done a good job 
dealing these kinds of issues.
    Senator Dodd. Ethnic Serbs returning to Croatia?
    Mr. Fried. They've come back. I don't--I'm not aware of a 
lot of problems. There are property issues that always have to 
be dealt with. Generally, the experience has been a good one. 
And the fact that the Serbian party is part of government shows 
how far they've come, how much progress they've made.
    Senator Dodd. The last question I have for you is the issue 
of Macedonia. You've indicated that Montenegro and Macedonia 
could possibly end up within the NATO family, as well. And 
obviously there's the ongoing concern about the name, from a 
NATO member state. And you recall, going back a number of years 
ago, Dick, that this was an issue that hasn't just emerged 
recently, but it goes back some time.
    Mr. Fried. Right.
    Senator Dodd. Enlighten us as to where that is and how 
serious it is. It's a serious issue, obviously, from the Greek 
standpoint. But, is there any ongoing effort to resolve that 
matter?
    Mr. Fried. It certainly is a serious issue. It was this 
issue that prevented NATO from extending an invitation to 
Macedonia. There is a negotiation process now very much 
underway in an intensive phase to resolve the name issue. It's 
led by Matt Nimitz under U.N. auspices. The United States 
supports that process very much. We believe that a compromise 
solution is possible. We encourage it. We're working closely 
with the Macedonian and Greek Government. There is no American 
plan. There is the efforts of Matt Nimitz, which we support. 
And we hope for a quick resolution so that an invitation could 
be extended to--so this issue can be resolved and we can extend 
an issue to Macedonia as soon as possible.
    Senator Dodd. Thank you.
    Senator Lugar, do you have any additional----
    Senator Lugar. Thank you, Mr. Chairman, just one additional 
comment, because I think the you have raised an important issue 
about the unanimity and when article 5 can be invoked, and so 
forth.
    The current predicament with Georgia is not one that 
involves NATO, but the response of the European Union members 
is, I think, helpful in trying to gauge a situation that might 
occur if there was a call for article 5. Or, for example, in 
trying to gain consensus of all the EU members in behalf of 
President Sarkozy's mission, just of a couple of days ago. This 
is quite apart from the visits by heads-of-state which has 
brought together many people who have different views on the 
relationship of their countries with Russia, or Europe with 
Russia, for that matter. And, in your testimony before the 
House from yesterday, you've gone down through at least five 
potential interpretations of where Russia might be heading. And 
these are all being debated by the Europeans.
    But, at the end of the day, it's remarkable that there 
could be any consensus. Even under the stress of this 
situation, Europe took a strong position with President 
Medvedev and Prime Minister Putin, as the case may be, at 
trying to deal with this.
    And this is the first time Europeans have been faced with 
this kind of an issue for a long time, and, as you know from 
your recent visit to Brussels, there are some nations who are 
asking, ``What does article 5 mean? Would it be there if we 
need it?'' They're really raising questions now of what NATO 
means to them. It's not that we were all quiescent and thought 
that, conceivably, all NATO meant was the occasional 
expeditionary mission of people to Afghanistan. We are back, 
really, to the integrity of Europe, how well European countries 
are cooperating with each other, and all kinds of issues on 
energy policy there, the lack of a grid system, the lack of 
cooperation on basic economic issues.
    During my recent trip to Europe and in my meetings and 
question-and-answer sessions there appeared to be a building 
consensus. They managed to come together, ambassadors, from 
both situations, talking, really, about the same issues. And I 
thought this was both instructive and encouraging. It's not 
that we would have wished the horrors that have occurred in 
South Ossetia to bring some sense of reality and debate and 
consensus in NATO. But, I think it's gone a long way to achieve 
that effect.
    And I just make this as an editorial comment, appropriate, 
I think, to our hearing today, because we are now discussing a 
very serious issue: Are two more countries going to strengthen 
the Alliance, weaken it, make any difference? Do they share the 
ethos? Do they take up their own strategic posture? And your 
answer has been yes, they do. They've taken expeditionary steps 
already. They've prepared themselves for that kind of duty. And 
that's important to know. And that's why our colleagues, I'm 
sure, will ask as we get in a markup session or on our Senate 
floor debate, which I'm hopeful will occur soon.
    I thank you, Mr. Chairman, very much for----
    Senator Dodd. No----
    Senator Lugar [continuing]. Chairing this meeting.
    Senator Dodd [continuing]. It's a very good point. I was 
thinking, here, Senator Lugar, as you were talking, and I don't 
know whether Secretary Fried would agree with this or not, but 
I was thinking, back some 10 or 12 years ago, when the 
conflicts broke out in the Balkans, and please correct me if 
I'm wrong, but I remember, a the loud silence from the European 
community. That's how it seemed to be at the time. There didn't 
seem to be much participation. One of the concerns expressed 
here is: Where is the European community stepping in, in a 
matter that clearly is within their immediate sphere of 
influence? And it seemed to me that this reaction was very 
slow, to put it mildly. Others may use more dramatic language 
to describe the European response at the time.
    Senator Dodd. Yes. Which is opposed to what you just 
described here, a very different----
    Senator Lugar. Yes.
    Senator Dodd [continuing]. Situation here, which I think 
has some value and relevancy in this debate and discussion, so 
it's important.
    This has been a very good hearing, and I'll end where I 
began. We need to hear from the Department of Defense, as well. 
There are questions I would expect you to address. But, 
clearly, as we all think about these matters, a DOD answer--and 
I don't blame General Craddock at all; he's got a role, and he 
doesn't need to be drawn before every Parliament in the world. 
And I know about the concern over the precedent-setting nature 
of that. But, clearly, he wears another hat, as well, which 
would have allowed him to be here to answer some questions. And 
so, I appreciate the message I've received regarding certain 
questions I've raised, and we'll try to get those addressed, 
but, at some point, we may need to hear from that point of 
view, as well.
    But, with that, I'll leave the record open for members who 
were not able to participate today, but have questions, or 
those who were here and have some additional questions.
    Senator Dodd. But, we thank you both very, very much, and 
the committee will stand adjourned.
    We'd like to invite our colleagues from the Croatian 
Parliament to come up and say hello to Senator Lugar and myself 
here at the dais.
    So, thank you both very much.
    The committee will stand adjourned.


    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. George V. Voinovich, 
                         U.S. Senator From Ohio

    Mr. Chairman, today's hearing on the expansion of the Transatlantic 
Alliance marks a historic step forward for the people of Croatia and 
Albania.
    I would like to take this opportunity to extend my personal and 
deep congratulations to Croatia and Albania on their respective 
invitations to join NATO.
    Croatia and Albania have come a long and successful way from their 
first public expression to join the Alliance in 1994, through their 
completion of the Partnership for Peace program, and their respective 
achievements in the Membership Action Plan.
    This invitation signifies NATO's confidence that Croatia and 
Albania will be strong partners for collective security in the world. 
These two democracies have consistently demonstrated their genuine 
desire for peace and security in both Southeast Europe and beyond, and 
their maturity in undertaking the necessary political, military, and 
security reforms required by the Alliance. In short, their active 
cooperation with NATO since 2002 has finally earned the reward it 
deserves.
    Croatia has proven itself to be a valued friend and partner of the 
United States. It is a leader in the cause of freedom. Several hundred 
Croatian soldiers, diplomats, and military police officers have worked 
within the NATO-led International Security Assistance Force in 
Afghanistan. Croatia has also provided vital logistical support for 
NATO-led operations in Kosovo, and for the training and equipment 
provided to help achieve peace and security in Iraq.
    We are also grateful for Albania's support of our joint efforts 
toward peace and stability throughout the world. Albania has proven 
itself to be a trusted ally for our country as seen with the 
establishment of its logistics support command center in Tirana, its 
peacekeeping operations in Kosovo, and its military and medical 
personnel deployed in Afghanistan.
    NATO enlargement is essential toward advancing freedom, stability, 
and democratic values throughout Europe. Croatia and Albania serve as 
two more examples of countries motivated by the prospect of NATO 
membership to advance significant and difficult political, economic, 
and military reforms. Their efforts and success demonstrate to other 
countries in the Balkans and beyond that NATO's door remains open to 
nations willing to shoulder the responsibilities of membership.
    It is my dream to see all of the countries of Southeast Europe in 
NATO and the European Union. Working together to achieve this vision, 
we can bring about a new and hopeful history for all of Europe.
    Mr. Chairman, I urge the Senate Foreign Relations Committee to 
report favorably--and for the Senate to expeditiously approve--the 
Protocols to the North Atlantic Treaty of 1949 on the Accession of the 
Republic of Albania and the Republic of Croatia.
    Thank you.
                                 ______
                                 

        Responses of Assistant Secretary Dan Fried to Questions 
             Submitted for the Record by Senator Bob Corker

    Question. NATO has several prescribed conditions required for 
countries to be given consideration as candidates to NATO. These 
conditions are meant to ensure that the country will be a stable 
contributor to NATO's overall mission rather than a detriment. 
Countries must be stable democracies, enjoying good relations with all 
other nations they neighbor, and not contain any disputed territories. 
At this time, it would appear that Georgia, though a strong ally of the 
NATO Alliance, is unable of meeting these conditions. Given continuing 
poor relations between Georgia and Russia, would Georgia be eligible 
for NATO membership? Do you believe that Georgia and Russia may be 
capable of quickly resolving the dispute? How do NATO members propose 
to deal with Georgia's disputed territories of Abkhazia and South 
Ossetia as an obstacle to NATO membership?

    Answer. NATO allies agreed at the NATO Bucharest Summit in April 
2008 that Georgia will one day be a member of the Alliance. Both the 
Alliance and Georgia's leaders understand that it is not ready for NATO 
membership at this time. The administration supports Georgia's request 
to enter NATO's Membership Action Plan (MAP). MAP is not a guarantee of 
membership; it is a work program designed to help aspirants achieve the 
progress they must make in order to qualify for eventual membership, 
which sometimes stretches over several years. We believe that working 
through MAP would allow Georgia to realize progress on reforms that 
would make it more stable and democratic, which would in turn benefit 
the entire region.
    It will take time to reverse the effects of Russia's invasion and 
restore neighborly relations between Georgia and Russia. As a first 
step, we are working to ensure full implementation by Russia of its 
cease-fire commitments, while adhering to the territorial integrity of 
Georgia as agreed in multiple U.N. Security Council resolutions.
    Ultimately, allies will have to determine for themselves whether 
Georgia has met the Alliance's performance-based standards and can 
contribute to Alliance security before reaching consensus on extending 
a membership invitation.
                                 ______
                                 

      Prepared Statement of Edward A. Andrus, President, National 
            Federation of Croatian Americans, Washington, DC

    The National Federation of Croatian Americans (NFCA)--on behalf of 
all the grateful Croatian Americans across our Nation--appreciates that 
Chairman Joseph Biden, Ranking Member Richard Lugar, and Acting Chair 
Christopher Dodd of the Senate Foreign Relations Committee have 
provided time during this very busy month for this important hearing. 
Consideration of early ratification for the North Atlantic Treaty 
Organization (NATO) protocols developed for the accession of the 
Republic of Croatia is greatly appreciated by the NFCA.
    Croatia earned the invitation received at the Bucharest Summit from 
the NATO Alliance on April 3, 2008, by its long and persevering work in 
implementing democratic reforms and the rule of law, in transforming 
its military to comply with NATO standards, and through active military 
participation with the United States and NATO forces in the war against 
terrorism in Afghanistan. In only 16 years Croatia has converted 
herself from a ``receiver'' nation-state to one of a ``provider'' of 
security assistance. Moreover, she currently occupies a seat as a 
nonpermanent member of the Security Council at the United Nations.
    The United States has long supported and guided the expansion of 
NATO to provide membership for those democratic nation-states who wish 
to be free and are willing to contribute to the defense of the entire 
Alliance. The United States has led the effort for Croatia's membership 
through strong bipartisan political support in both houses of the 
Congress, at the State and Defense Departments together with the 
creation of the Adriatic Charter, and with our allies in NATO. The 
United States can now continue to show leadership among her NATO allies 
by being the first NATO member to ratify the protocols for the 
accession of the Republic of Croatia.
    Croatia's full membership in NATO will benefit the United States by 
improving the stability and security of Southeast Europe. One has but 
to consider the recent military actions in the new nation-state of 
Georgia to appreciate the fragility of peace in that part of the world. 
In nearby Bosnia and Herzegovina, the political situation remains 
unresolved with respect to equal rights for all of the ethnic and 
political constituencies there. In Serbia, a pro-Western government has 
a shaky hold on power in a country where, apparently, Russia continues 
to have interest. Croatia has worked diligently to build peace 
partnerships with all of her neighbors including some who were former 
enemies. In so doing she has shown great leadership and become a model 
for all freedom loving nations in the region who aspire to someday 
belong to the great organization of NATO. Croatia has shown the way, 
and this good partner of the United States deserves to finally become a 
full member of NATO. The NFCA humbly requests that this committee move 
this ratification process forward to the Senate floor for a full vote 
at the earliest possible date.
    The NFCA, on behalf of the Croatian American community, has worked 
tirelessly with the U.S. Government, particularly the Departments of 
State and Defense, to help ensure that no obstacles of concern would 
stand in the way of this treaty ratification. Along the way, the NFCA 
participated in the formation of the Congressional Croatian Caucus in 
the U.S. House of Representatives and assisted in the development and 
promotion of congressional resolutions that commended Croatia's 
progress toward satisfying the many requirements necessary to join the 
NATO organization. There are many that the NFCA would like to recognize 
for significant contributions made toward the achievement of this 
important goal for the Republic of Croatia. Special thanks must go to 
U.S. Ambassador Robert A. Bradtke for the guidance he has provided 
Croatia in helping her position for this membership. The progressive 
and accomplished diplomatic team under recent Croatian Ambassadors to 
the United States, in particular current Ambassador Kolinda Grabar 
Kitarovic, are deserving of the Croatian American community's 
appreciation for their tireless and successful efforts to date.
    Our thanks also go to our consistent and supportive NFCA national 
membership and the cochairs of the Congressional Croatian Caucus, 
Congressmen George Radanovich (R-CA) and Peter Visclosky (D-IN), for 
their leadership and support for Croatia in the U.S. House of 
Representatives. We also thank U.S. Senators Joseph Biden (D-DE), 
Richard Lugar (R-IN), and George Voinovich (R-OH)--as well as U.S. 
Representatives Elton Gallegly (R-CA) and Robert Wexler (D-FL) on the 
House side--and their expert staffs for their bold legislative 
statements, creative resolutions, and other initiatives supportive of 
Croatia. The NFCA acknowledges President Bush for keeping his promise 
``to lead the charge for Croatia at the 2008 NATO Summit.'' The 
President and his Bucharest Summit team did just that.
    The NFCA is the national umbrella organization of Croatian American 
groups that collectively represents approximately 130,000 members. For 
additional public affairs information, please contact Mr. Joe Foley, 
NFCA Government and Public Affairs Director, or the NFCA Headquarters, 
or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ace2eaefedc4c8ddecdac9dec5d6c3c282c2c9d882">[email&#160;protected]</a> For recent NFCA newsletters, 
important NFCA membership and chapter information, and other Croatian 
American news please visit the NFCA's Web site at www.nfcaonline.com.
    Thank you, Mr. Chairman.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
